<html>
<title> - THE STATE OF DEMOCRACY IN THE AMERICAS</title>
<body><pre>[Senate Hearing 112-90]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-90

                 THE STATE OF DEMOCRACY IN THE AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                  CORPS, AND GLOBAL NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 30, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





        Available via the World Wide Web: http://www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
68-242 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                COMMITTEE ON FOREIGN RELATIONS          

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE          
             CORPS, AND GLOBAL NARCOTICS AFFAIRS          

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            MARCO RUBIO, Florida
JIM WEBB, Virginia                   MIKE LEE, Utah
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia
                                     JOHN BARRASSO, Wyoming

                             (ii)          











                            C O N T E N T S

                              ----------                              
                                                                   Page

Dominguez, Jorge I., Ph.D., Antonio Madero Professor for the 
  Study of Mexico, Harvard University, Cambridge, MA.............    23
    Prepared statement...........................................    25
Fisk, Daniel, Vice President for Policy and Strategic Planning, 
  International Republican Institute, Washington, DC.............    29
    Prepared statement...........................................    30
Jacobson, Roberta, Deputy Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State, Washington, DC...     4
    Prepared statement...........................................     6
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    45
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Reid, Michael, Americas Editor, The Economist, London, United 
  Kingdom........................................................    17
    Prepared statement...........................................    18
Rubio, Hon. Marco, U.S. Senator from Florida, opening statement..     2

                                 (iii)

  

 
                       THE STATE OF DEMOCRACY IN
                              THE AMERICAS

                              ----------                              


                        THURSDAY, JUNE 30, 2011

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
         Peace Corps, and Global Narcotics Affairs,
                             Committee on Foreign Relations
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:16 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the subcommittee) presiding.
    Present: Senators Menendez and Rubio.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. This hearing of the Western 
Hemisphere Subcommittee will come to order. First of all, let 
me apologize for starting a little late. We were on the phone 
with the administration and unavoidably detained.
    As we celebrate the 10th anniversary of the signing of the 
OAS Inter-American Charter, I wanted to convene a hearing to 
assess the progress of democracy in the hemisphere, to 
highlight where it is strong and vibrant, as well as where 
there remains progress to be made.
    All the countries in the region save one adhere to a 
democratic form of government. We celebrate that achievement 
and we seek to further solidify the pillars of democracy: fair 
and free elections, the independent operation of the 
legislative and executive branches, an independent judiciary, 
respect for civil society, and the ability of the press to 
operate freely.
    As we have made progress in our country during more than 
200 years of constitutional rule, so has Latin America. Whereas 
in the 1980s we saw dictatorial rule, the norm is now 
competitive elections that are free and fair. We see transfers 
of power and alternation in power between parties of the right 
and the left. Brazil, Chile, and Uruguay have made great 
strides in the quality of democracy over the past 30 years. 
Chile, a country rated as not free in 1981 under the criteria 
used by Freedom House, is today rated as free. Likewise, Brazil 
and Uruguay, rated partly free in 1981, are rated as free 
today.
    In total, Freedom House today rates 22 countries as free 
and 10 as partly free. So there is work to be done among the 
countries that are partly free: Bolivia, Colombia, Ecuador, 
Guatemala, Haiti, and Honduras, to mention a few. But in most 
cases the trends are positive.
    Of particular concern are those countries that are rated as 
free, were rated as free in 1981, but are now only rated as 
partially free, such as in Venezuela. Let me just mention a few 
concerns of mine. One of those is the tendency toward 
centralization of power. In 1980 the military of many countries 
ruled under authoritarian rule, issuing decrees instead of 
allowing for the elaboration of laws. Today the trend is toward 
extension of term limits. We see that trend in Venezuela, 
Ecuador, Bolivia, and recently in Paraguay. In Guatemala the 
Presidential candidate took an unusual route to ensure her 
eligibility for the President, divorcing her spouse, President 
Colom, in order to, as she put it, marry her country. Perhaps 
such a move is technically legal, but it clearly circumvents 
the spirit of the law. Even Colombia passed a law to allow a 
third term for its President, but the Supreme Court ruled it 
unconstitutional.
    A second concern is respect for civil society, the 
independent voices of the citizenry, and the right to criticize 
one's government without fear of reprisal. In some countries, 
voices are physically constrained, whereas in others the effort 
has become more opaque, using laws and regulations to 
frustrate, constrain, and undermine the operation of civil 
society by imposing barriers that prevent their registration, 
their operations, or access to resources.
    The most strident case in this regard except for Cuba is 
Venezuela. In December 2010 the Venezuelan national assembly 
passed legislation that restricts civil society organizations 
that ``defend political rights,'' or ``monitor the performance 
of public bodies'' from obtaining international funding. The 
law is in direct violation of article 13 of the U.N. 
Declaration of Human Rights Defenders, which states explicitly 
that ``everyone has the right, individually and in association 
with others, to solicit, receive, and utilize resources for the 
express purpose of promoting and protecting human rights.''
    A third concern is that of freedom of expression. In 
Central America, journalists that cover drug trafficking, 
corruption, and organized crime face threats to their lives 
that often result in self-censorship. In Argentina, government 
attempts to control the press have masqueraded as regulatory 
controls.
    So today I hope to hear from our witnesses on what we are 
doing and what we can do to preserve and deepen the gains that 
have been made in the last 30 years and what we are doing to 
foster strong democratic institutions, respect for civil 
society and the media, to ensure that on the 20th anniversary 
of the Inter-American Democratic Charter, all the nations of 
our hemisphere will share in the political and economic 
benefits that are derived from a vibrant democracy.
    With that, let me turn to the ranking member, Senator 
Rubio, for his remarks.

             OPENING STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman. I appreciate you 
holding these hearings. These are important. A prosperous, 
democratic, and stable Western Hemisphere is crucial to the 
United States own safety and prosperity. It's in our national 
interest and, quite frankly, in the interest of the world.
    In that respect, there's a lot of good news to report, and 
I think we'll hear that in the testimony today. Four nations 
that I would single out specifically as examples of the promise 
that the Western Hemisphere has in the 21st century: Colombia, 
that overcame and is overcoming decades of violence, both 
political and criminal, to stake a new future for itself and 
continues on that path. We're all very excited about the 
direction Colombia is headed, despite significant struggles, 
and we hope, at least speaking for myself, that soon we will 
have a free trade agreement with the people of Colombia that 
will further strengthen these democratic institutions and 
brighten their future.
    Chile is another great example of a nation that continues 
to prosper as it embraces market economics and stability in the 
political realm; Brazil, that's emerging into not just a 
regional power, but increasingly a global one, and that we hope 
will continue to grow in that role and exercise its influence, 
particularly its example to other nations in the region as to 
how much promise there exists when you give your people freedom 
and economic opportunities; and Mexico that, despite some real 
significant struggles they're going through right now, 
particularly with criminality, their democratic institutions 
have taken root and we hope that they'll serve as an example to 
the region.
    There are some other stories, however, that are not nearly 
as bright and they continue to be a blemish on the Western 
Hemisphere and, quite frankly, sadden us. The first, of course, 
is Venezuela, who today is governed by a clown, more 
appropriate for a circus than as someone who governs a country. 
It's sad. No. 1, he has illusions of grandeur. He views himself 
as a world leader. He's not. He's increasingly irrelevant in 
the region because his neighbors now recognize that he is a 
clown.
    But more importantly, I feel sorry for the people of 
Venezuela because he's an embarrassment to that country, a 
people that are a proud people, a people with a tremendous 
amount of potential, a country with a tremendous amount of 
wealth, really a nation that has an opportunity to be a leader 
in the world, but is being held back by incompetent leadership, 
and we hope that will change soon.
    Nicaragua is run by a relic, someone who was in charge back 
in the 1980s when I was in sixth grade and Madonna was just a 
new artist coming on the scene. The guy's made a comeback, I 
don't know how, and unfortunately Nicaragua is being held back 
as well, and that's too bad because the people of Nicaragua 
deserve better and can have better and I hope will have better.
    Then Cuba, which is not just a repressive regime, it's 
actually a Jurassic Park. It's run by a bunch of late 70, early 
80-year-old men that are really basically relics of a bygone 
era. They are not just tyrants; they're incompetent. They don't 
know how to run an economy. They don't know how to run a 
country. The result is that Cubans are successful everywhere in 
the world except for one place, Cuba, and that's because of the 
leaders they have, and we obviously hope to be a part of seeing 
a change happen there sometime soon.
    So there's a lot of good news in the Western Hemisphere. 
There's at least four examples of bad news. We hope that that 
will change and, God willing, that will be what the United 
States can play a role in bringing about.
    Thank you.
    Senator Menendez. Thank you, Senator.
    With that, let me welcome Roberta Jacobson, the Deputy 
Assistant Secretary of State in the Bureau of the Western 
Hemisphere. She has previously served as Director of the Office 
of Policy, Planning, and Coordination for the Bureau, covering 
such issues as civil-military relations, human rights, 
counternarcotics, foreign assistance. Most recently, she served 
as Deputy Assistant Secretary for Canada, Mexico, and NAFTA. 
Outside of Washington, she's also served as the deputy chief of 
mission in Peru.
    We appreciate your long record of service in dealing with 
issues in the hemisphere, are glad to have you here, and 
recognize your New Jersey roots, which adds value. Somebody 
raised their hand in the back there. And along the way, we 
appreciate what you've done.
    I ask you to synthesize your statement for about 5 minutes 
or so. Your entire written statement will be included in the 
record. With that, Madam Secretary, I'm happy to hear what you 
have to say.

  STATEMENT OF ROBERTA JACOBSON, DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF WESTERN HEMISPHERE AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Jacobson. Thank you, Mr. Chairman, Ranking Member 
Rubio. I'm delighted to be here today. Thank you for the 
opportunity to appear.
    I'd like to start by saying that we share your assessment 
of the important successes in many societies in Latin America 
and the Caribbean that they are enjoying today. That success is 
measurable in rising levels of political and personal freedom, 
greater economic prosperity, and increased global integration. 
These factors work together to generate vast opportunity. They 
strengthen institutions. They have helped lift scores of 
millions of people out of poverty in the last decade and in the 
process brought forth huge pools of talent that are 
transforming very diverse countries.
    Yet there remain significant weaknesses in democratic 
institutions in much of the hemisphere. So we must use this 
opportunity to secure and deepen democratization in our 
hemisphere. This requires active U.S. engagement, but it hinges 
fundamentally on partnership with our democratic neighbors and 
the actions of both governments and civil societies. The fact 
that democratic values we seek to advance are shared ones, 
embodied in instruments like you have mentioned, the Inter-
American Democratic Charter, strengthens our hand.
    In some countries, democratic space is being rolled back 
rather than expanded. Persistent government pressure on freedom 
of expression, the criminalization of dissent, the centralizing 
and controlling executive branch, and disrespect for the 
legitimate and essential role of political minorities are our 
principal concerns in this regard.
    In other nations, persistent inequality or the insecurity 
created by gangs and cartels threaten democratic gains, and 
unfortunately Cuba remains a glaring exception to the region's 
democratic convergence, as Secretary Clinton has emphasized.
    I have mentioned in my statement, my longer statement, many 
of the examples of leadership that we see throughout the 
Americas, many of which you have already mentioned in your 
review. We have seen veterans of Chile's democratic transition 
go to Cairo to talk to democratic leaders there about advancing 
reconciliation. Canadian Prime Minister Harper has made 
advancing democratic gains in the Americas a core focus of his 
foreign policy. Colombia is now working with Central American 
nations to bolster citizen security, and there are others that 
are mentioned in my remarks.
    We're working with governments in the region, the Inter-
American Commission on Human Rights, and others to address the 
needs of vulnerable, traditionally marginalized groups--women, 
indigenous people, people of African descent, young people, 
LGBT persons, because we view the defense of these human and 
civil rights as key to the advancement of the region as a 
whole. And with the bipartisan support of Congress, we are 
steadfast in our commitment to four linked citizen security 
initiatives: The Merida Initiative, the Central America 
Regional Security Initiative, the Caribbean Basin Security 
Initiative, and the Colombia Strategic Development Initiative. 
Our programs there focus particularly on reinforcing the rule 
of law and strengthening democratic institutions to bring 
security and protection to all citizens.
    Last week, Secretary Clinton led the U.S. delegation in 
Guatemala at an international conference of support for the 
Central American Strategic Security Strategy, which brought 
together heads of state from Central America, Mexico, Colombia, 
and many other leaders from around the region and the world. 
Her participation and our efforts to harmonize our activities 
with those of our partners also served to follow up on the 
President's commitments during his March trip to Latin America. 
She then went on to Jamaica to meet with the Foreign Ministers 
from the Caribbean community and the Dominican Republic, where 
she underscored the importance of partnership on citizen 
security, the Energy and Climate Partnership of the Americas, 
and efforts to engage diasporas on economic and democratic 
development.
    But we are also active in the face of challenges posed by 
democratically elected leaders who seek to consolidate power in 
the executive branch through extraconstitutional means. It is 
not always easy to work positively with civil society when 
governments seek to limit our presence. Because we respect the 
rights of people in all societies to choose their futures, we 
stand steadfast in our commitment to universal rights and 
democratic freedom.
    In Cuba, we have taken concerted steps to help the Cuban 
people live the lives they choose and chart their own course, 
and we will continue to support dissidents and civil society. 
We are working to expand connections between our society and 
Cuban society and open the way for support of Cubans who are 
striking their own path.
    We are particularly concerned about Venezuela, as President 
Chavez continues to disrespect the legitimate role of 
democratic institutions, restrict freedoms, including by 
closing press outlets, and use the judiciary to persecute 
political opponents.
    In Nicaragua, the government has manipulated the courts and 
Congress to concentrate power in the executive. We have pressed 
the Nicaraguan Government to invite election observers and 
coordinated with our international partners to try and enhance 
prospects for free and fair elections, though we fear this 
window is rapidly closing.
    Other countries, such as Bolivia and Ecuador, are on 
complicated trajectories and have limited the scope of our 
bilateral relationship.
    I also mention in my remarks the importance of the 10th 
anniversary of the Inter-American Democratic Charter and 
continuing our work with the OAS, as we have done most recently 
and most successfully in Haiti's elections and in Honduras's 
readmission to that body.
    So this is the extremely varied backdrop to our intense 
diplomatic engagement in the Americas, and I look forward to 
working with you and your colleagues as we strive to make 
irreversible democratic gains in our hemisphere.
    Thank you very much.
    [The prepared statement of Ms. Jacobson follows:]

                 Prepared Statement of Roberta Jacobson

    Mr. Chairman and members of the committee, I want to thank you for 
the opportunity to appear before the committee today.
    Mr. Chairman, I have heard you highlight the important success many 
societies in Latin America and the Caribbean are enjoying today. We 
share your assessment. That success is measureable in very tangible 
ways: in rising levels of political and personal freedom, greater 
economic prosperity, and increasing global integration. These factors 
work together in remarkable synergy. They generate vast opportunity. 
They strengthen institutions. They have helped lift scores of millions 
of people out of poverty in the last decade--and in the process brought 
forth huge new pools of talent and energy that are literally 
transforming very diverse countries. It is difficult to imagine this 
happening without the consolidation of democratic and market societies 
in most of Latin America and the strengthening of democratic 
institutions in much of the Caribbean over the last two decades.
    Yet there remain significant weaknesses in democratic institutions 
in much of the hemisphere, so instead of being complacent, we must use 
this opportunity to secure and deepen democratization in our 
hemisphere. This requires active U.S. engagement, but it hinges 
fundamentally on partnership with our democratic partners and the 
actions of both governments and vibrant civil societies in the region. 
That the democratic values we seek to advance are shared ones embodied 
in instruments like the Inter-American Democratic Charter, strengthens 
our hand. Together we can build on the progress made in recent decades 
and attack the challenges that remain.
    I know I do not need to emphasize to anyone here that we have a 
huge stake in the success of our neighbors in the Western Hemisphere. 
So, it follows logically that we have a powerful interest in 
strengthening and expanding the factors that sustain that success. We 
know this task is not finished--democratic governance is a constant 
project.
    In some countries democratic space is being rolled back rather than 
expanded. Persistent government pressure on freedom of expression, the 
criminalization of dissent, a centralizing and controlling executive 
branch, and disrespect for the legitimate and essential role of 
political minorities are our principal concerns in this regard. In 
other nations, persistent inequality, or the insecurity created by 
gangs and cartels, threatens democratic gains. Some countries present 
elements of democratic advance in certain areas, retreat in others, and 
remain under security-related stress. And, unfortunately, Cuba remains 
a glaring exception to the region's democratic convergence, as 
Secretary Clinton has emphasized. But the region's commitment to 
democratic development, broadly put, is widespread and strong--and the 
values that sustain democracy are rooted throughout the Americas.
    I would like to review a few examples that may not regularly make 
headlines but provide a sense of the scope of democratic leadership in 
the Americas. Then I would like to talk briefly about what we see as 
some of the biggest challenges.
    In Brazil, strong democratic institutions have helped forge and 
hold consensus on combining sound economic policies with vigorous 
antipoverty programs that together have lifted more than 30 million 
people out of poverty; Veterans of Chile's democratic transition were 
quick to visit Cairo following the removal of President Mubarak to talk 
about the importance of strong institutions, share lessons about 
advancing reconciliation, and ensuring that democracy delivers results. 
Mexico's skillful diplomacy brought the December 2010 U.N. Climate 
Change Conference in Cancun to a successful conclusion. Colombia is now 
working with Central American nations to bolster citizen security and 
rule of law capacity. Uruguay's commitment to peace and security 
extends beyond its borders as a recognized leader in U.N. peacekeeping 
operations throughout the world. Canadian Prime Minister Harper has 
made advancing democratic gains in the Americas a core focus of his 
foreign policy agenda, and we are working closely with the Canadians on 
these issues. The overwhelming majority of Caribbean nations have fair, 
open elections, robust civil societies, and generally strong human 
rights records, but continued economic weakness in some Caribbean 
nations has hampered their ability to implement rule of law and 
increases their vulnerability to crime.
    We are working with governments in the region, the Inter-American 
Commission on Human Rights, and others to address the needs of 
vulnerable, traditionally marginalized groups--women, indigenous 
peoples and people of African descent, youth, and LGBT persons--because 
we view the defense of these human and civil rights as key to the 
advancement of the region as a whole. Full democracy cannot be achieved 
when more than half of the population does not enjoy the rights that 
citizens are entitled to and cannot participate in the democratic 
process.
    With bipartisan support of Congress, we are steadfast in our 
commitment to four coherent, interlinked citizen security initiatives 
of the Obama administration: the Merida, Central American Regional 
Security, Caribbean Basin Security, and Colombian Strategic Development 
initiatives. These initiatives support regional efforts to bring 
security to their people. Our programs focus particularly on 
reinforcing the rule of law and strengthening democratic institutions 
that can offer protections for all citizens.
    Last week, Secretary Clinton led the U.S. delegation to the 
International Conference of Support for the Central American Security 
Strategy, in Guatemala. This conference brought together the heads of 
state from Central America, Colombia, and Mexico, as well as other 
partners such as Spain, the EU, the IDB and the World Bank, to advance 
strategies for addressing the security crisis in Central America. The 
Secretary's participation and our efforts to harmonize U.S. Government 
security-related activities with those of our partners also served to 
follow up on the President's commitments during his March trip to Latin 
America. The Secretary also travelled to Jamaica to meet with Foreign 
Ministers from the Caribbean Community (CARICOM) and the Dominican 
Republic, where she underscored the importance of our partnership on 
citizen security under the Caribbean Basin Security Initiative (CBSI), 
as well as the Energy and Climate Partnership of the Americas and 
efforts to engage diasporas to advance economic and democratic 
development.
    We are, in short, a robust partner throughout the Americas in 
support of fundamental building blocks of democracy: rights, 
institutions, security. We are not complacent in the face of challenges 
posed by democratically elected leaders who seek to consolidate power 
in the executive branch through extra-constitutional means or by ruling 
via majoritarianism at the expense of minority rights. These tactics 
come in various forms, ranging from intricate legalistic maneuvers that 
are nothing more than an abuse of the rule of law, to brute force, 
intimidation, and arbitrary arrests.
    A bedrock of democratic governance--media freedom--is also under 
pressure from transnational criminal organizations. To counter 
increased threats against reporters, the United States is working to 
promote media security and freedom. In Mexico, we are supporting 
``Cobertura Segura,'' a program that trains reporters to work in high-
threat environments, in cooperation with the International Center for 
Journalists. In other nations it is governments that have restricted 
freedom of expression; we are supporting civil society's efforts to 
restore a voice to all people.
    In the face of these serious challenges, we remain committed to 
finding ways to work positively with civil society throughout the 
Americas. It is not always easy to do so when governments seek to limit 
our presence. Because we respect the rights of people in all societies 
to choose their futures, we stand steadfast in our commitments to 
universal rights and democratic freedoms.
    In Honduras, we stood with other countries in the hemisphere and 
agreed that an interruption of the constitutional order by force and 
without due process of law was unacceptable. We are pleased that in the 
wake of the Honduran elections and thanks to the efforts of the Lobo 
government and mediation from OAS Member States, Honduras has restored 
its democracy and returned to full membership in the OAS.
    In Cuba, we have taken concerted steps to help the Cuban people 
live the lives they choose and chart their own course independent of 
the Cuban regime. That is why we are working to expand connections 
between our society and Cuban society and open the way for meaningful 
support of Cubans who are striking their own path, whether in civil 
society or the private sector.
    We are particularly concerned about Venezuela as President Chavez 
continues to disrespect the legitimate role of democratic institutions, 
restrict freedoms, including by closing some of the hemisphere's most 
distinguished and durable press outlets, and uses the judiciary to 
persecute political opponents and criminalize dissent. Grave economic 
concerns, including the highest inflation in the hemisphere and an 
abysmal security situation, while felt by all Venezuelans, impact the 
poor and vulnerable most dramatically. In this difficult environment, 
Venezuela faces important elections in 2012. We believe that the early 
presence of a sufficient number of credible and well-trained 
international observers will be important to the credibility of the 
process.
    In Nicaragua, the government has manipulated the courts and 
congress to extend and concentrate power in the executive. We have 
pressed the Nicaraguan Government to invite credible domestic and 
international election observers and coordinated with international 
partners to enhance prospects for free, fair, and transparent 
elections, though we fear this window is rapidly closing. Other 
countries, such as Bolivia and Ecuador, are on complicated trajectories 
that have unfortunately limited the scope of our bilateral 
relationship. In all of these cases, we continue to uphold our 
commitment to fundamental democratic principles and to address threats 
to democracy in the region in collaboration with our international 
partners and regional institutions.
    And yet, the hemisphere continues to come together to resolve 
shared challenges. As we near the 10th anniversary of the signing of 
the Inter-American Democratic Charter on that fateful day in 2001, we 
are reminded that the Organization of American States, while by no 
means a perfect institution, remains a relevant body for hemispheric 
nations to address regional problems. The OAS was instrumental in 
helping to ensure that the elections in Haiti were representative of 
the will of the Haitian people. Honduras' recent readmission to that 
body after the democratic order had been interrupted is a testament to 
the region's capacity for constructive multilateral engagement.
    This is the extremely varied backdrop to our intense diplomatic 
engagement in the Americas. We are steadfast in our principles, 
reliable in our partnerships, and clear eyed about our interests. We 
also recognize that each nation's citizens are the primary and 
indispensable protagonists in their countries' political development. 
We seek cooperation throughout the hemisphere to achieve greater 
prosperity and security. And we share your vision that effective 
democratic institutions and respect for basic rights are both 
fundamental and critical to these goals. I look forward to working with 
you and your colleagues as we strive to make irreversible democratic 
gains in our hemisphere.

    Senator Menendez. Thank you, Madam Secretary.
    So let me start off. Perhaps one of the greatest and least 
commented on threats to democracy goes beyond elections. 
Elections are one element of a democracy, but without all the 
other aspects of what we would consider a democratic country--
independent branches of government, a judiciary that is honest, 
and a legal system that is transparent, that observes the rule 
of law--those are all elements that make up what a democracy is 
all about, ensuring that you cannot manipulate a constitution 
to be able to stay in power, which increasingly is a reality in 
the hemisphere.
    But maybe one of the least commented on threats to 
democracy in Latin America is the silencing of civil society. 
The power of civil society to turn the political view and to 
expose what some would prefer to be hidden makes them a target. 
That repression is not always as vivid as we may see in a 
country like Cuba, but the harassment of an activist, discrete 
forms of rules and regulations that control the ability of 
civil society organizations to function, to receive funding, to 
operate peacefully within their country for change, is in my 
mind under siege. Venezuela is a great example of that.
    How closely does the Department follow this issue and in 
your view which are the most difficult countries for civil 
society organizations to operate in?
    Ms. Jacobson. Thank you, Mr. Chairman. I think that was an 
extremely eloquent review of the critical importance of civil 
society in democracies. Without civil society activists able to 
work freely, one really can't talk about fully functioning 
democracies. We've made it very clear that we think that that 
includes all kinds of civil society groups, from opposition 
political parties to an independent press, a functioning, 
transparent, fair judiciary, and the ability for folks to 
organize around any subject and present their views to their 
government and be heard.
    So we think that we pay a lot of attention to civil 
society. It is a huge part of what we do in the State 
Department, engaging with civil society. The Secretary has made 
that a key part of her platform, engaging in townhall meetings, 
making sure that she talks about the voices in civil society 
that need to be heard, as well as speaking with governments 
about their views.
    I think throughout the hemisphere you have different 
situations in different countries and it's difficult for me to 
say precisely which countries might be those in which we have 
the greatest concern. But certainly we have been outspoken in 
our concerns about the difficulty of civil society acting and 
organizing in Venezuela, in Nicaragua. We have concerns about 
the ability of the press to operate freely in many countries in 
the hemisphere, either because those freedoms may be impinged 
upon by governments or, frankly, because those freedoms are 
impinged upon by criminal organizations threatening 
journalists. We know that the hemisphere has become a dangerous 
place for journalists.
    So we believe that there are lots of things that we need to 
do as a whole in the hemisphere to try and advance civil 
society.
    Senator Menendez. Let me pursue that a bit more with you. 
So you say the Department pays a lot of attention to this and I 
hear that the Secretary is engaging civil society in 
conversations, townhall meetings. Those are all desirable, but 
what more are we willing to do to help civil society in the 
hemisphere, to empower them to have the ability to try to 
perfect democracies in their countries or, in the absence of a 
democracy, to try to help them create a democracy?
    Ms. Jacobson. I think there are a number of ways in which 
we can help support civil society. One is the bully pulpit and 
the Secretary uses that, but that's only one. Another is 
engaging with organizations in programs that we have. Our 
democracy programs have increased, especially in the citizen 
security initiatives, the four that I mentioned, where a good 
deal of our attention is now not only on improving governmental 
institutions to make them fairer, more open, stronger, to 
resist corruption, but also in working with nongovernmental 
community organizations, civil society, in resisting both 
criminal organizations and being able to channel their views to 
governments.
    I think the other thing that's critically important is the 
use
of new technologies and new media, making sure that we are 
enabling citizen activists to speak out. The alliance of youth 
movements that we've promoted throughout the hemisphere works 
extensively with young people in organizations that are 
community-based and use digital media to get their message out.
    So it is a combination of some of the more traditional 
forms of assistance, programming and assistance through our 
foreign assistance budget, but also exchange programs, 
educational programs, new media.
    Senator Menendez. Well, let me be a little bit more direct. 
It seems to me that there was a time in our country when we 
were very aggressive about promoting democracy throughout the 
world, and we were very engaged and did not let the pushback of 
authoritarian governments deter us from pursuing that. It seems 
to me that in some places in the world we're doing that. I read 
an interesting article about the Internet in a briefcase and 
how we are traveling in different places to help societies 
access it so they can unlock their potential to communicate, 
inform each other and inform themselves about what's happening 
in the rest of the world.
    Yet when it comes to places like Cuba, where instead of 
actively engaging in helping civil society be able to have the 
wherewithal that we want in other parts of the world such as 
the Arab world and Iran, we have this reticence, and there are 
some who would in essence undermine the very purpose of our 
democracy and civil society programs in a country that is 
clearly by all standards the most oppressive in the entire 
western hemisphere.
    So I think that entities and governments, particularly 
authoritarian governments, in the hemisphere are clearly going 
to push back, whether it's against the National Endowment for 
Democracy, IRI, or our own programs, and that cannot be the 
basis upon which we abandon the rigor that I as the chairman of 
this committee want to see in this hemisphere when it comes to 
helping civil society.
    I'm hoping that the administration and the State Department 
will be more vigorously engaged in helping civil society, 
regardless of the pushback we get from the Chavezes, from the 
Eva Moraleses, or from the Castro regime, because otherwise, if 
we respond to the pushback, then they will have achieved their 
goal and we will have not had the wherewithal to help those who 
risk their liberty and sometimes their lives to create greater 
democracy within this hemisphere.
    It is an enormous value to us as a country. It's not only 
about doing the right thing. Democracies are less likely to 
create armed conflict against other democracies. They are more 
likely to permit the type of economies that can help grow and 
help their citizens prosper and create greater demands by their 
citizens within civil society.
    So I hope we will change course and move more aggressively 
ahead on the areas that I see as concerns in terms of our 
democracy programs in this hemisphere.
    Ms. Jacobson. Thank you, Mr. Chairman. I think that's 
exactly right. What I was referring to in my opening remarks, 
we face challenges in implementing those programs of bringing 
information to people, ensuring they have access to that 
information. But those challenges should not deter us from 
upholding the principles that we completely agree with and 
trying to ensure that people do have greater access to that 
information, are able to both project their voices outward and 
receive the voices of people around the hemisphere and around 
the world.
    Senator Menendez. I appreciate that we face challenges, and 
we had challenges in Poland and we had challenges in what was 
Czechoslovakia before it became the Czech Republic, and in 
other places in Eastern Europe, and we did not let those 
challenges deter us from our vigorous engagement in democracy 
programs. So I think I've made my point with that.
    Senator Rubio.
    Senator Rubio. Thank you, Secretary Jacobson, for being 
with us this morning and for your statement. I wanted to talk 
about something that we don't talk about often enough. I think 
it's relevant to all of this conversation. It's trafficking in 
persons. The report in 2010 just came out on Monday. It 
designates Cuba as a tier 3 country for failing to adhere to 
minimum antihuman trafficking standards.
    As you know, U.S. law prohibits funding for officials or 
employees of tier 3 governments to participate in educational 
and cultural exchange programs until such government complies 
with minimum antihuman trafficking standards or makes 
significant efforts to comply with those standards. It's 
obviously not the direction we're headed with regard to these 
sorts of programs with Cuba.
    I guess my question is, how is the administration's 
exchange process with Cuba in compliance with these legal 
restrictions, and if they're not--and I think that this has 
been waived--what's the calculation there? Because I'm deeply--
aside from the political realities of what's happening in Cuba, 
this trafficking in persons issue is a major one around the 
world and the fact that Cuba is one of the countries that 
refuses to comply with it and in fact is a significant player 
in trafficking in persons in terms of its government 
unwillingness to participate should be troubling outside of the 
political realm of this.
    Ms. Jacobson. Thank you, Senator. In our exchange programs 
and efforts to try and undertake exchange programs in Cuba, our 
goal is to work with civil society. As you reflected in the 
comment, the reference to the anti-TIP, that refers to 
exchanges that might involve government members. That's not the 
case in Cuba. We try to do programming to bring people to the 
United States who are nongovernmental, to have exchanges that 
are people to people, civil society-focused.
    That's where we will continue to place our effort, on civil 
society and on people to people. It is indeed unfortunate that 
we have not seen cooperation on trafficking in persons issues, 
which are a serious problem throughout the hemisphere.
    Senator Rubio. In terms of the calculation, what goes into 
the calculation that somehow we should waive those requirements 
when it comes to Cuba, that we perhaps wouldn't do with some of 
the other tier 3 countries? What's the cost-benefit analysis of 
having done that?
    Ms. Jacobson. Sir, I'm not aware that we've waived the 
requirements for Cuba in terms of exchange programs. I'd have 
to get greater information or specificity on that?
    Senator Rubio. The exchange programs we have with Cuba now 
violate--are they not in contradiction with what the law says 
we should not be doing with countries that are in the tier 3?
    Ms. Jacobson. The exchange programs that we have, such as 
they are, with Cuba I believe focus on civil society. But I 
would have to get back to you in further detail as to whether 
there are any government officials involved.
    Senator Rubio. We'll talk about that more further. But the 
reality of it is that it did require--as the report outlines, 
all the full sanctions available for countries that fall under 
tier 3 are not applied to Cuba, and it's outlined in the 
report. I apologize for not--I probably should have previewed 
that question with you earlier because you have a broad array 
of issues that you had to be prepared for. So we'll talk more 
about that in the future.
    But I just wanted to make the marker out there. That's an 
issue we're very interested in in general and we're interested 
to know why somehow on Cuba we went in a different direction.
    Two quick questions. On Venezuela, in the elections last 
year there is now legitimate, although, sadly, a little bit 
divided and severely restricted, opposition's presence in the 
Parliament. I was interested if the State Department has 
thought about any programs or is pursuing any programs to help 
Venezuelan parliamentarians share experiences and know-how with 
their counterparts in some of the other, more established 
democracies in the region or around the world?
    Ms. Jacobson. Thank you, Senator. We have programs in 
Venezuela that are directed at, in a nonpartisan fashion, 
trying to work on democratic processes, opening up democratic 
space. I would need to check and find out if we have specific 
programs for parliamentarians. I'm not aware of whether or not 
we do in Venezuela. We do that in some countries.
    But overall, our general goal is to work on democratic 
leadership, and that may include any members of opposition 
political parties and indeed members of any political parties 
that are democratically based in Venezuela. We want to work on 
the processes of government. They're nonpartisan. They're not 
pro or antigovernment
per se.
    We too noted the opposition's presence in the Parliament 
and there are important issues that they are taking up at this 
time that deserve our attention.
    [Addition written information from Ms. Jacobson concerning 
the above question of Senator Rubio follows:]

    Currently, we do not have a parliamentary exchange program in 
Venezuela. For several years after the 2002 coup, select Members of 
Congress and Venezuelan parliamentarians--bipartisan delegations from 
both nations--met as the so-called ``Boston Group,'' to share 
experiences and enhance dialogue. The Department had no formal role in 
that group but remained in close contact with its members. The Boston 
Group fell into disuse after 2005, but there apparently is some 
interest in reinvigorating it.
    USAID programming in Venezuela, as well as in other countries, aims 
to improve dialogue among diverse political actors. Those programs are 
nonpartisan and open to all political persuasions. We can arrange a 
private briefing on our USAID programs in Venezuela.

    Senator Rubio. Just--it's not as a criticism. Just to 
highlight it, I think it's a positive development that there is 
an emerging opposition--we needn't call it ``opposition''--
minority party in Venezuela that is in opposition to the 
policies of the government, who have a legitimate voice on 
behalf of the people of Venezuela, and we should explore, 
whether it's through nongovernmental organizations, the State 
Department or otherwise, in a way that doesn't undermine them, 
by the way, because oftentimes that's what they've done, is 
undermine minority parties by saying they're somehow being 
controlled by the United States; but empower them with the 
ability to be a more effective minority party, point out the 
abuses and the bad policies, because apart from all of the 
abuses and all the ridiculous acts on the part of the leaders 
of that country, of President Chavez, he's also incompetent. I 
think part of being the minority party and the opposition party 
in that Parliament is being able to point to his policy 
failures and how Venezuela could be doing so much better if it 
went in a different direction.
    The last question involves Guatemala. I'm in receipt of a 
letter--it's dated May 24--from the Guatemalan Supreme 
Elections Tribunal. What they ask for basically is they're 
requesting international observers for the upcoming 
Presidential elections. You may not--you may be or may not be 
aware of--we'll certainly share this and I think maybe other 
Senators may have gotten this letter as well.
    But basically, they're asking us to participate as a group 
of international observers for their upcoming elections on 
September 11, 2011. Are you aware of this request, and if so is 
the State Department prepared to ask the participation of U.S. 
organizations under this request?
    Ms. Jacobson. Thank you, Senator. We obviously strongly 
support the work of the TSE, the electoral tribunal, and we've 
made it very clear that we're concerned about some pressures 
and threats that they've been under, and that it's very, very 
important that those elections be carried out in a free and 
fair way. We will be working with others, both within Guatemala 
and outside and in the hemisphere, to ensure that they are 
observed as much as possible, and we're certainly part of that 
conversation.
    Senator Rubio. Just to close the loop on it, because I want 
to answer this letter that they wrote me, are you aware of or 
can we talk later at some point when you can check into it even 
deeper about whether the State Department would be willing to 
actively solicit American organizations to participate as 
international observers in their elections?
    I think they're probably sending this all over the world. 
They're looking for international electoral supervision. But I 
would encourage the State Department to be helpful in bringing 
about two or three organizations here in the United States that 
would be willing to go to Guatemala and observe the elections. 
I would encourage you to take a part in that. We can talk more 
about that after.
    Thank you.
    Ms. Jacobson. Absolutely. Thank you.
    [The written information from Ms. Jacobson follows:]

    The U.S. Mission to the Organization of the American States (OAS) 
is contributing $200,000 to support the OAS' 2011 Guatemala Electoral 
Observation Mission. In addition, USAID has a Cooperative Agreement 
with the National Democratic Institute (NDI) for elections support 
(approximately $1,000,000 in USAID funds). The two main activities of 
the agreement are a quick count on election day and training/technical 
support to the national observers network.
    USAID also has an agreement with the International Foundation for 
Electoral Systems through the Consortium for Elections and Political 
Process Strengthening that supports an elections Web site with 
information for voters, electoral registry operations, technical/
administrative strengthening of the Supreme Electoral Tribunal, and 
other areas to promote free and fair elections in Guatemala.

    Senator Menendez. Thank you, Senator Rubio.
    I just have one or two other questions. It's interesting to 
note that the TSC actually just disqualified--I hadn't seen 
that press report; my staff showed me--the former first lady 
from running. So I guess they are taking some very courageous 
positions. We'll see if they can continue to withstand it.
    In my view, freedom of the press is under attack in several 
countries in Latin America, in some cases by governments, in 
other cases by the threat of violence from private actors. 
Venezuela threatens those who criticize the government. 
Argentina has attempted to control the print stock of a 
newspaper critical to the government. In Honduras and Mexico, 
the lives of journalists who dare to report on drug trafficking 
activities or government corruption or authoritarian rule are 
at stake.
    What priority does the Department and our missions place on 
supporting independent journalists and providing them with the 
space to share their views and publicize their opinions? Do our 
missions intercede in helping those independent journalists?
    Ms. Jacobson. They do, Senator. This is an extremely high 
priority for us and we're extremely concerned about some of the 
trends that you've outlined. It takes different forms in 
different places. In Mexico, for example, we have a program 
called Cobertura Segura, which works with NGOs at the 
University of Guadelajara, and which trains journalists in how 
to avoid the kinds of pressure and dangers that criminal 
organizations put on independent, fair reporting.
    In places like Honduras, we have helped the government set 
up a special task force that is focusing on some of the crimes 
that have been committed against journalists, among other 
groups.
    In places where we have seen governmental pressure on 
independent journalism, we have certainly spoken out. We have 
ensured that we have robust exchange and international visitor 
programs for independent journalists, so that they can share 
their experiences, so that they can learn from other 
journalists, both around the hemisphere and in the United 
States.
    So there are a variety of ways. At the OAS General Assembly 
this spring there were two resolutions passed, one on freedom 
of expression, one on freedom of assembly. Not always easy to 
get those issues focused on. We have given monetary 
contributions to the OAS's rapporteur on freedom of expression 
because we think her work is critically important in this area.
    So there are a variety of means that we use to try and 
promote and protect the vibrant media in these countries, and 
we will continue to do so.
    Senator Menendez. My final question is, How can we work 
with the OAS to strengthen its resolve in pursuing enforcement 
of its Inter-American Democratic Charter?
    Ms. Jacobson. I think, Senator, it's an excellent question, 
and I think that we have to----
    Senator Menendez. I only ask excellent questions. Just 
kidding. [Laughter.]
    Ms. Jacobson. Indeed.
    Senator Menendez. We have to have fun here along the way.
    Ms. Jacobson. What we do with the OAS basically is to try 
and support with allies in the hemisphere the engagement of 
that organization through its members individually, but most 
importantly collectively at times, because when we work 
together we can have enormous effect. I think that's why I used 
the Haiti and the Honduras examples as ones where the region 
came together as a whole to act on concerns and threats that 
were seen to democratic processes.
    It is not always easy for us to get that kind of consensus 
to work in all areas, and I think that we have to continue to 
both refer to the charter itself and to make the charter real 
through programs and actions by the OAS that bring that charter 
to life, if you will, in individual cases. We certainly have 
seen over the years that the OAS has been able to act and been 
able to reverse in many ways threats to democracy, beginning 
really with the situation in Peru and the Windsor commitment 
out of the OAS General Assembly years ago in that case.
    But it has not always been an even path and there have been 
times when there are threats to democracy that have not been 
responded to as strenuously as we would like them to be. So it 
is a work in progress and we will continue to engage with the 
special rapporteurs, with the specialized bodies of the OAS who 
implement parts of that, and with member states as the 10th 
anniversary approaches to strengthen and highlight those parts 
of the democratic charter that still need implementation.
    Senator Rubio. Just a brief statement and I want to get 
your impression on it. This may shock you, but as an American 
in politics--I think the same is true in the Western 
Hemisphere--sometimes people run for office and they say 
certain things for domestic consumption in their countries, and 
then they win the election and they have to govern and they 
become incredibly pragmatic. I think we see that throughout the 
region as well.
    I think we saw that in Brazil, where President Lula when he 
had to run he had ascribed to some political theories in the 
past, but once he began to govern didn't fully embrace, and in 
fact took his nation down the road, a much more pragmatic road 
economically, certainly politically, and the result is that 
Brazil today is on the verge of becoming a global power, which 
is a very good development for the region and a very good 
development for our partnership with them, hopefully.
    So I watch with great interest what happened in Peru, a 
nation that has really begun to progress economically as well 
and just had an election. There was some rhetoric, particularly 
in the past, but the new President stated his intentions with 
respect to Peru's democratic institutions--well, first he 
distanced himself from statements, including his previous 
support for, for example, some of the policies followed by 
Chavez and others, and he praised Brazil as a model for the 
kind of economic policies he'd like to see his country continue 
to pursue.
    Do you have any impressions you could share with us on the 
future of Peru? Because I hope that they're on the verge of 
joining that list that I outlined earlier--Brazil, Colombia, 
Panama, hopefully Mexico if they can be successful in the 
challenges that they face, and others, Chile, that are headed 
in the right direction economically, and of course with their 
democratic institutions.
    What are your general impressions about the hope there and, 
more importantly, the hope of our engagement with Peru in a 
very positive way?
    Ms. Jacobson. Thank you, Senator. Another excellent 
question.
    Senator Rubio. I got it from the chairman. [Laughter.]
    Ms. Jacobson. I think it's a terrific example. And you've 
mentioned all of the countries, frankly--many of the countries; 
I shouldn't leave out others perhaps--where we have really 
positive relations, where countries are really moving ahead on 
reducing inequality, increasing social inclusion, strengthening 
democracies and their economies. That's precisely what we'd 
like to see with Peru and to see that continue.
    Our view of President Humala's election is that we want to 
have the best possible relationship with him. We have 
congratulated him, obviously, on his victory and said that we 
look forward to working with him. We have enormously important 
interests with Peru--continuing to work on counternarcotics 
issues, continuing to help with economic strengthening, 
ensuring that that economic prosperity reaches further, 
frankly, than it has thus far.
    We really want to have precisely the relationship that 
you've outlined, a very positive partnership with Peru, and 
we're optimistic about that.
    Senator Menendez. With that, let me thank you very much for 
your testimony and your responses to our questions. We look 
forward to continuing to work with you in the days ahead. Thank 
you, Madam Secretary.
    Let me introduce the next panel and ask them to come up as 
I introduce them: Michael Reid is the Americas Editor at The 
Economist, and a columnist in Latin American media, such as 
Valor Economico in Brazil and Poder in Mexico. He has become 
one of the world's leading authorities on the political, 
social, and business cultures of Latin America. As a journalist 
who has been covering the region for a quarter century, he has 
sought to shed light on what many still consider a forgotten 
continent. And we welcome him to the committee.
    Dr. Jorge Dominguez is the Antonio Madero Professor for the 
Study of Mexico, Vice Provost for International Affairs, and 
Special Advisor for International Studies to the Dean of the 
Faculty of Arts and Sciences, and chairman of the Harvard 
Academy for International and Area Studies. I hope you get paid 
for each one of those, doctor.
    He is the author or coauthor of various books, among them 
``Consolidating Mexico's Democracy,'' ``Constructing Democratic 
Governance in Latin America.'' We appreciate your willingness 
to interrupt a family visit in order to be with us today and 
look forward to your testimony.
    Mr. Dan Fisk is the vice president for Policy and Strategic 
Planning for the International Republican Institute. In his 
varied career, Mr. Fisk has served as Special Assistant to the 
President, Senior Director for the Western Hemisphere Affairs 
at the National Security Council. At the State Department he 
served as Deputy Assistant Secretary of State in the Bureau of 
Western Hemisphere Affairs, as well as a former senior staff 
member and associate counsel for this committee. We welcome you 
back, Dan, to the committee for your testimony.
    Again, let me invite each of you to make about 5-minute 
statements. Your full statements will be included in the 
record, and we'll start with you, Mr. Reid.

  STATEMENT OF MICHAEL REID, AMERICAS EDITOR, THE ECONOMIST, 
                     LONDON, UNITED KINGDOM

    Mr. Reid. Good morning, Mr. Chairman and Senator Rubio. 
Thank you very much indeed for the invitation to appear before 
you today. As an observer of Latin America who hails from the 
other side of the pond, I take it as a rare honor. So I thank 
you very much indeed.
    Mr. Chairman, Latin America has never been as democratic as 
it is today. With one notable exception, Cuba, every country 
enjoys formally democratic government. Over the past decade the 
region's democracies have been strengthened by much 
socioeconomic progress. Faster economic growth means that some 
40 million Latin Americans left poverty between 2002 and 2008. 
Most countries successfully navigated the world financial 
crisis and the past 2 years have seen a strong economic 
recovery and the resumption of the fall in poverty.
    Income inequality is declining, too, and that matters 
greatly because the extreme inequality that has long scarred 
Latin America has had a series of negative consequences, 
reducing economic growth, increasing political instability, and 
forming fertile ground for populism.
    These positive trends are achievements of democracy. Social 
safety nets are much improved. Conditional cash transfer 
programs now cover around 110 million of the poorest Latin 
Americans. That's one in five of the total. The steady 
expansion in years of schooling in the region has also helped 
reduce inequality. And Latin America is seeing an expansion of 
the middle class and a growing sense of citizenship.
    This progress is bringing greater political stability. 
Between 1998 and 2005, eight elected Presidents were ousted 
before the end of their term. Since then this has happened in 
only one case, that of Manuel Zelaya in Honduras.
    But clearly the region's democracies still face many 
difficulties. Sustaining socioeconomic progress and generating 
equality of opportunity requires raising the rate of 
productivity growth and improving the poor quality of public 
education. Crime and citizen insecurity are now the most 
serious public concerns in the region, having displaced 
economic worries. Outside conventional war zones, Latin America 
is the most violent region on Earth. Criminal organizations 
challenge the writ of the state. The prevalence of violent 
crime is both consequence and cause of the relative weakness of 
the rule of law in many Latin American countries.
    Despite some attempts at reform, judiciaries remain 
ineffective and sometimes corrupt, and the same goes for police 
forces, and prisons are all too often overcrowded, violent 
spaces.
    Last, in a handful of countries the practice of democracy 
has been undermine by elected autocrats. To widely varying 
degrees, elected leaders in Venezuela, Nicaragua, Bolivia, 
Ecuador, and Argentina have hollowed out democracy, 
eviscerating checks and balances, and threatening civil and 
political freedoms and the private sector. And one might add 
that organized crime poses similar threats in Mexico and parts 
of Central America.
    For the most part, elected autocrats have been able to 
concentrate power because they are popular, because they have a 
rapport with poorer voters who have previously felt 
unrepresented. The legitimacy of these leaders ultimately 
derives from the ballot box and that is their Achilles heel. 
Even if President Chavez is restored to vigorous health in 
Venezuela, the opposition has a good chance of winning next 
year's Presidential election.
    Chavezmo as a continental project has been in retreat for 
several years. Victory in the ideological conflict of the past 
decade, that I have referred to as the battle for Latin 
America's soul elsewhere, has gone to the democratic reformers, 
such as Brazil's Dilma Rousseff. That is because chavismo has 
demonstrably failed. Despite high oil prices, Venezuela's 
economy has lagged others in South America in the past 2 years 
and other countries are overhauling it in social indicators. It 
is symptomatic that Ollanta Humala, Peru's President-elect, now 
professes himself to be a sympathizer of Brazil's policies 
rather than the chavista he was in 2006.
    Mr. Chairman, the United States still enjoys considerable 
influence in Latin America. In my opinion it can best deploy it 
by supporting the governments in the region that are its 
friends, that show respect for the everyday practice of 
democracy, and an obvious example would be the swift approval 
of the Free Trade Agreement with Colombia.
    The most effective means of weakening elected autocracy are 
in my view multilateral regional diplomacy, working with 
partner governments in the region, and the succoring of civil 
society organizations such as those that are bravely standing 
up for civil and political freedoms across the region.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Mr. Reid follows:]

                   Prepared Statement of Michael Reid

    Mr. Chairman Menendez and other members of the subcommittee, thank 
you for inviting me to appear before the subcommittee, an invitation 
for which as a British observer of Latin America I feel particularly 
honoured.
    Latin America has never been as democratic as it is today. With one 
notable exception, Cuba, every country enjoys formally democratic 
government. Over the past decade the region's democracies have been 
strengthened by much socioeconomic progress. But clearly they still 
face many difficulties and challenges. In a small minority of 
countries, elected autocrats have hollowed out democracy, eviscerating 
checks and balances and threatening civil and political freedoms. More 
broadly, the region's democratic governments have much work to do to 
ensure the rule of law and the security of their citizens, and to 
provide equality of opportunity and the public goods required to 
sustain rapid economic growth. Democracy also faces narrower political 
problems, such as the weakness of parties, a new tendency toward 
political dynasticism and seemingly widespread corruption, much of it 
related to party and campaign financing. Nevertheless the balance sheet 
of the past decade is positive: democracy is putting down stronger 
roots in Latin America and bringing with it greater political 
stability. Between 1998 and 2005 eight elected Presidents were ousted 
before the end of their term. Since then, this has happened in only one 
case, that of Manual Zelaya in Honduras, when a conflict of powers 
ended in a coup.
(1) The economic and political evolution of Latin America
    Unlike many other parts of the developing world, Latin America has 
a tradition of constitutional rule dating back almost two centuries, 
albeit one that was imperfect and often truncated. But the current 
period of democracy, dating from the demise of dictatorships across 
much of the region during the debt crisis of the 1980s, is in my view 
qualitatively different from those that went before. The pendulum 
between dictatorship and democracy that marked much of the 20th century 
in Latin America has stopped. With the granting of the vote to 
illiterates, and the reform of electoral authorities, almost everywhere 
universal and effective suffrage has been achieved. Decentralisation, 
though not problem-free, has deepened democracy. And urbanisation and 
socioeconomic progress have generated more active and inclusive 
citizenship, although this remains a work in progress.
    Although a few countries possess older democracies, in much of 
Latin America the retreat of dictatorship coincided with--and was 
partly a result of--the debt crisis of the 1980s and the death throes 
of economic policies of statist protectionism. Democracy brought 
promarket economic reform, but inherited widespread poverty and extreme 
inequality of income. The initial fruits of reform were relatively 
disappointing, in part because of adverse conditions in the world 
economy. Poverty fell only moderately and inequality increased, partly 
because of the failure to implement an adequate social safety-net and 
partly because of the one-off impact of radical and unilateral trade 
opening.
    The region's democracies were subjected to a severe stress-test 
during a lost half decade of economic stagnation and recession between 
1998 and 2002, when unemployment rose, real incomes fell and progress 
in reducing poverty was halted. As noted, some countries saw political 
instability; and more generally, public support for democracy waned. 
The ``Washington Consensus'' became a damaged brand.
    In these circumstances, the political alternation that is normal in 
democracies brought a number of governments of the centre-left to 
power, ending two decades of dominance by the centre-right. In itself, 
that represented an important democratic breakthrough: electoral 
victories by the left had often been thwarted by military intervention 
during the cold war. Several of the new Presidents were born in 
poverty, and are not members of traditional ``white'' elites: their 
election gave a more inclusive character to democracies. Several of 
these governments, notably Brazil's, have pursued generally moderate, 
social-democratic policies, maintaining economic and financial 
stability and respecting constitutional restraints on executive power. 
But other elected leaders of the left, especially Venezuela's Hugo 
Chavez, have established personalist regimes and imposed a much greater 
degree of state control over the economy.
    The past decade has been a good one for many of the region's 
economies. Those in South America especially have benefited from 
sustained high prices for their commodity exports induced by the 
industrialisation of China and India. In the 5 years to mid-2008, 
economic growth in Latin America averaged a creditable 5.5 percent a 
year. Thanks to much better economic policies, continued demand from 
Asia and timely support from multilateral financial institutions, the 
region navigated the world financial crisis successfully, with most 
countries suffering only a brief recession of varying severity but no 
structural damage. A vigorous recovery saw growth of 6 percent in the 
region last year, moderating to around 5 percent this year. Whereas 44 
percent of Latin Americans were officially counted as living in poverty 
in 2002, that number fell to 32 percent in 2010. Income inequality is 
falling, too. That matters, because Latin America has long been scarred 
by extreme inequality, which has had a series of negative consequences, 
reducing economic growth, increasing political instability and forming 
fertile ground for populism. Data for 2002-10 shows income inequality 
decreasing in 16 out of 17 countries, with the GINI coefficient falling 
on average by almost 3 points.\1\ The region's democracies have built 
much better social safety-nets, including conditional cash transfer 
programmes which now cover around 110m of the poorest Latin Americans. 
The gradual but steady increase in the years of schooling of those 
entering the workforce also seems to have helped to reduce income 
inequality. At the same time, low inflation and financial stability is 
stimulating the growth of credit and home ownership.
---------------------------------------------------------------------------
    \1\ Leonardo Gasparini and Nora Lustig. ``The Rise and Fall of 
Income Inequality in Latin America'' Cedlas. Available at http://
cedlas.econo.unlp.edu.ar/esp/documentos-de-trabajo.php.
---------------------------------------------------------------------------
    The fall in poverty has prompted much triumphalism about the rise 
of a ``new middle class,'' now held by some to form a majority of the 
population in Brazil. In fact, many of these people can more accurately 
be described as lower middle class or working poor and their situation 
remains fragile. A more realistic estimate by a team at the Brookings 
Institution reckons that 36.3 percent of Latin Americans were middle 
class in 2005.\2\ But the point is that a process is under way in which 
many people have disposable income for the first time; and their 
children are usually much better educated than they are. Across much of 
the region improvements in living standards are palpable in better 
housing and the expansion of shopping centres and modern retailing. In 
many places, this has been matched by an improvement in public 
facilities, such as transport and telecommunications, parks and sports 
facilities.
---------------------------------------------------------------------------
    \2\ Mauricio Cardenas, Homi Kharas, and Camila Henao, ``Latin 
America's Global Middle Class,'' Brookings Institution, April 2011.
---------------------------------------------------------------------------
    This trend of socioeconomic progress is favourable for the 
permanence of democracy in Latin America. Indeed, it has generated a 
greater sense of democratic citizenship. But the progress needs to be 
sustained and intensified. In particular, the poor quality of public 
education continues to impede equality of opportunity. The region has 
made strides in expanding educational coverage, but it will take many 
years for most Latin Americna countries to catch up. Of the bigger 
countries, only in Chile has a majority of the workforce at least 
completed secondary education (though the same applies in Costa Rica 
and Uruguay). The second, even bigger, problem is that Latin Americans 
don't learn enough in school. The eight Latin American countries that 
were among the 65 countries (or parts of them) that took part in the 
latest PISA international tests of secondary-school performance in 2009 
all came in the bottom third.\3\ In Panama and Peru, the worst 
performers, nearly a third of 15-year-olds tested were close to being 
functionally illiterate. Visit a state school almost anywhere in Latin 
America and it is not hard to see why: the teachers are themselves 
often poorly educated and trained; the problem of teacher absenteeism 
is chronic; and the school day may well be short because of the need to 
accommodate two or three shifts. But the story now is of improvement, 
from a low base. In the 2009 PISA tests Peru, Chile, and Brazil all 
registered significant improvements compared with their performance in 
2000; Mexico did to a limited extent. In all those countries there is 
now a public debate about the importance of improving the quality of 
public education. Increasingly, teachers are being required to submit 
to evaluations; educational testing has been introduced; and teachers 
pay is being linked to their school's improvement. Opinion polls show 
that parents tend to be complacent about school performance, but civil-
society pressure groups are working to change that.
---------------------------------------------------------------------------
    \3\ OECD, PISA 2009 Results at www.oecd.org/edu/pisa/2009.
---------------------------------------------------------------------------
(2) The difficulties in establishing the rule of law
    Another important trend is less favourable for democracy: the rise 
of organised, violent crime. Crime is now the most serious public 
concern in the region, having displaced economic worries, according to 
regional polls by Latinobarometro. With reason: outside conventional 
war zones, Latin America is the most violent region on earth. Worst are 
the three countries of Central America's northern triangle, Jamaica and 
Venezuela; murder rates per head of population in Honduras and El 
Salvador are more than 10 times higher than in the United States. Four 
and a half years in to President Calderon's crackdown on the drug 
mafias, the level of violence in Mexico continues to rise. It is not an 
exaggeration to say that the writ of the state does not run, or 
certainly not in uncontested fashion, in parts of Guatemala, Honduras, 
Mexico, and Colombia, as well as inside prisons in many countries.
    This problem is in part externally generated, by the failure of 
prohibition to reduce substantially demand for illegal drugs in the 
United States and Europe, and by the failure of the United States to 
prevent the export of small arms or take more effective action against 
money-laundering. The committee should not underestimate the extent to 
which the United States is seen as part of the problem, rather than 
part of the solution, of violent crime in Latin America. But clearly 
the spread, prevalence, and intensification of violent crime is also 
both consequence, and cause, of the relative weakness of the rule of 
law in many Latin American countries. Despite some attempts at reform, 
judiciaries remain ineffective and sometimes corrupt; the same goes for 
police forces; and prisons are all too often overcrowded, violent 
spaces. The result is a terrifying level of impunity, with 9 murders 
out of 10 going unpunished in Mexico and Central America's northern 
triangle.
    But some countries have managed to achieve significant reductions 
in violence. In Colombia, the absolute number of homicides has almost 
halved since 2002; the rate per 100,000 people has fallen from 70 to 34 
over the period, and is now below the rate in Venezuela. That is 
something for which U.S. aid can take considerable credit, combined 
with the efforts of Colombians. In Brazil, Sao Paulo state, and more 
recently Rio de Janeiro, have seen steady falls in violent crime, 
principally because of better policing.
    As well as better policing and more effective courts, in the medium 
term controlling organised crime requires providing more and better 
legal opportunities for young Latin Americans. The weakness of the rule 
of law is also manifest in the scale of the informal economy in Latin 
America, which employs roughly half the labour force. Another such 
manifestation is the prevalence of corruption. As well as the 
squandering of public resources, the perception of corruption can 
generate disillusion with democratic institutions, and provides fodder 
for populist attacks on representative democracy.
    The growth of violent crime has posed an acute threat to media 
freedoms in some countries, especially in Mexico and Central America, 
as was the case in Colombia in the 1990s. Drug-related violence has 
made Mexico one of the world's most dangerous countries for the press, 
according to the Committee for the Protection of Journalists. Thirteen 
Mexican journalists have been killed since the beginning of 2010, at 
least three in direct reprisal for their work. The committee is 
investigating to determine whether the other deaths were related to the 
journalists' work
(3) The practice of elective autocracy
    In a handful of countries elected leaders have chosen to rule in a 
more or less autocratic manner. Such rulers have not always been of the 
left: Peru's Alberto Fujimori was a conservative elected autocrat. But 
over the past decade, a small group of leftist leaders have behaved to 
a greater or lesser extent as elected autocrats.
    Venezuela's Hugo Chavez is the archetype. He has systematically 
concentrated power in his own hands and neutered independent 
institutions. He has done this by means of a new constitution; the 
packing of the judiciary and of other institutions of state, bending 
the rules to ensure that they are occupied by loyalists; and frequent 
recourse to rule by decree. He has also considerably expanded the role 
of the state in economy, often in violation of the property rights 
guaranteed by the 1999 Constitution, a document he himself inspired. 
According to Fedecamaras, the main private-sector organisation, almost 
400 companies have been nationalised since Mr. Chavez became president 
in 1999 and late 2010, most of them in 2009 and 2010. Some 3 million 
hectares of farmland have also been taken over. In most cases, 
compensation has not been paid. President Chavez has also done his best 
to neutralise the growing strength of the opposition. He has done this 
first by eviscerating the powers and resources of local government; 
and, second, by rewriting the electoral law to eliminate proportional 
representation (in violation of the constitution) in the election for 
the National Assembly and gerrymandering the electoral districts, so 
that although the opposition won a narrow majority of the popular vote 
in last September's legislative election it ended up with only 67 of 
the 165 seats. In addition, the government has used its nominees in the 
offices of Comptroller General and Attorney General to harass legally 
some opposition leaders, selectively disqualify them from standing as 
candidates or filing criminal charges against them, often of 
corruption. Whether or not such charges have legal merit, they have 
been levied in a politically partisan manner. President Chavez's 
government has also taken several steps to curb media freedom. These 
have included the nonrenewal of the broadcasting licence of RCTV, 
previously the most popular television station, and those of a number 
of radio stations. Media owners have been the target of law suits and 
journalists have often faced harassment, including physical attacks by 
chavista mobs. It should be noted that some media played into the 
government's hand by adopting a highly partisan stance, usurping the 
role that should more properly be played in a democracy by opposition 
political parties. In addition, the opposition allowed the president to 
turn the National Assembly into a rubber stamp by boycotting the 2005 
legislative election.
    The main reason that President Chavez has been able to concentrate 
such power is because he has been remarkably popular, at least since 
2004, despite his government's mismanagement of the economy, of 
infrastructure and many other matters. That is in part because 
sustained high oil prices have given the government a windfall which 
has been spent on the poorer Venezuelans who make up his political 
base. It is also because of his rapport with many poorer Venezuelans 
who identify with him as ``one of us.'' He has persuaded them of his 
political narrative, according to which they owe their poverty to U.S. 
imperialism, the ``oligarchy'' and past ``neo-liberalism,'' even if 
this does not bear serious historical scrutiny. Thus, in 2006 President 
Chavez won a fresh Presidential term with 63 percent of the vote. Even 
though the government's economic mismanagement meant that Venezuela has 
suffered 2 years of recession from which it has only emerged this year, 
polls suggest that Chavez continues to enjoy support from between 40 
percent and 50 percent of the population.
    Venezuela is in many ways an autocracy, but it is not a 
totalitarian state. To a significant extent, it retains an open 
society. Some television channels remain nonpartisan, while several 
important newspapers support the opposition. Civil-society groups play 
a vital role in monitoring and criticising the government. And unlike 
the Castros in Cuba, President Chavez owes his legitimacy to the ballot 
box. Although the President has abused state resources in election 
campaigns, until now there is no conclusive evidence that the vote 
count has been fraudulent in Venezuela. Provided it remains united, the 
opposition has a real chance of winning the Presidential election due 
at the end of next year (that chance will clearly increase should the 
President's health remain in doubt). While there are fears in some 
quarter that Chavez would not accept electoral defeat, he would have 
little support within the region for any attempt to cling to power in 
those circumstances). And all the polling evidence suggests that the 
vast majority of people on both sides of Venezuela's political divide 
consider themselves to be democrats.
    Of the other countries in Chavez's anti-American ALBA block, 
Nicaragua is the most complete autocracy (Cuba apart). By manipulation 
of the judiciary and the electoral authority, President Daniel Ortega 
has got himself on the ballot for this year's Presidential election, in 
violation of the constitution. There are strong reasons for believing 
that the municipal election in 2008 was not free and fair. Two 
opposition parties were disqualified from the ballot, and independent 
election observers were refused accreditation to monitor the count. The 
country's leading investigative journalist, Carlos Fernando Chamorro, 
has faced harassment. However, if Ortega wins in November's vote, it 
will be because he is more popular than the unimpressive and divided 
opposition.
    Some of these things apply in Bolivia and Ecuador. As in Venezuela, 
both Evo Morales in Bolivia and Rafael Correa in Ecuador have 
concentrated power in their own hands through the device of a new 
constitution. In Bolivia, the government has taken effective control of 
the judiciary. Some opponents have suffered harassment. Media 
organisations say that a law against racism has on occasions resulted 
in self-censorship. But there can be no doubt that the arrival in Evo 
Morales in power gave a more inclusive character to Bolivian democracy. 
Morales remains popular, but less so than he was mainly because of the 
government's handling of some economic issues. In Ecuador, opposition 
concerns about the working of democracy focus on the recent narrow 
approval in a referendum of government proposals that would give it 
greater control over the judiciary and the media. In addition, the 
government has used the defamation law to harass some journalists. To a 
much lesser extent, there are concerns about the concentration of power 
in the executive in Argentina. The governments of the Kirchners have 
exercised extraordinary powers over the distribution of revenues to the 
provinces; they have nationalised the private pension system, and used 
its equity investments to place directors on the boards of private 
companies; and taken a series of measures to disadvantage media groups 
that are hostile to the government. Yet once again, if President 
Cristina Fernandez de Kirchner wins a second term in the Presidential 
election in October it will be because of the popularity rapid economic 
growth has bestowed upon her and the public sympathy she has derived 
from her bereavement.
(4) Civil society and political change
    The committee should note that President Chavez enjoys far less 
influence in Latin America today than he did 5 years ago. That is 
partly because he honoured only some of his promises of largesse. It is 
partly because his verbal aggression against the United States is far 
less effective with President Obama, who is widely popular among Latin 
Americans, in the White House. But it is mainly because Venezuela under 
his stewardship has performed poorly in recent years. Its economy 
contracted by 3.3 percent in 2009 and 1.6 percent in 2010 according to 
the U.N. Economic Commission for Latin America and the Caribbean; that 
compares badly with regional average contraction of 1.9 percent in 2009 
and growth of 6 percent in 2010. Venezuela has also performed less well 
on social progress: for example, between 2005 and 2009 Peru, which has 
pursued free-market economic policies, climbed 24 places in the United 
Nations Human Development Report, and now ranks ahead of Venezuela. It 
is striking that Ollanta Humala, the victor of Peru's Presidential 
election, now professes himself to be a sympathiser of Brazil's 
political approach, rather than that of Venezuela, which he favoured 
when a candidate at the last election in 2006. In addition, the 
difficulties of Cuba's regime have further undermined the appeal of 
atavistic communism.
    The political hegemony of the left in Latin America has had 
positive consequences for democracy in some countries, and negative 
ones in others. That hegemony has owed much to the commodity boom, 
which has financed redistributive social policies and allowed 
incumbents of all political stripes to achieve and retain popular 
approval. A more uncertain outlook for the world economy suggests that 
Latin American Presidents may find life harder in the coming decade 
than they did in the last one. Future economic difficulties may 
increase popular discontent in the region, but they will also place a 
premium on sound economic policies.
    The polling evidence suggests that roughly half of Latin Americans 
have remained convinced democrats through the ups and downs of the 
economic cycle, with only a small minority favouring authoritarian 
government. However, Latin America's long history of natural-resource 
abundance combined with extreme inequality and relative 
underdevelopment means that the populist gene remains part of its body 
politic. And the prevalence of crime and corruption can add to the 
appeal of authoritarian political leaders. Nevertheless, as Latin 
American societies become less poor and less unequal, the social 
foundations of democracy ought to become stronger. Over the past decade 
the region has seen an ideological conflict, between democratic 
reformism and autocratic populism. In my view, that battle is now 
clearly being won by the democratic reformists. Political hegemony in 
Latin America is increasingly to be found in the centre ground.
    The decline in Chavez's influence shows the wisdom of those in this 
country who argued that the best policy towards Venezuela's verbal 
provocations of the United States was to ignore them. The United States 
still enjoys considerable influence in Latin America. In my view it can 
best deploy it through close and constructive relations with the 
governments in the region that show respect for the everyday practice 
of democracy (an obvious example would be swift approval of the free-
trade agreement with Colombia). Multilateral regional diplomacy and 
succouring civil-society organisations have shown themselves to be the 
most effective means of supporting democracies that have come under 
pressure from elected autocracy. Everything suggests that this will 
continue to be the case for the next few years.

    Senator Menendez. Thank you.
    Dr. Dominguez.

    STATEMENT OF JORGE I. DOMINGUEZ, PH.D., ANTONIO MADERO 
    PROFESSOR FOR THE STUDY OF MEXICO, HARVARD UNIVERSITY, 
                         CAMBRIDGE, MA

    Dr. Dominguez. Thank you very much, Mr. Chairman and 
Senator Rubio. It's an honor to be here. In my remarks, I 
concentrate on a point that my colleague Michael Reid just 
made, namely, that most Latin Americans today live under 
constitutional democratic government. That is why I spend some 
time in my written text on Brazil and Mexico, because that is 
where most Latin Americans live.
    I was delighted to hear Senator Rubio's earlier comment 
comparing Brazil and Peru, because that is in fact how my 
testimony begins. I look at the example of Brazil's 2002 
Presidential election to indicate very much the key points 
Senator Rubio emphasized: the key role of the constitutional 
transfer of power from government to opposition, the shift of 
the political views of the candidate who wins the Presidency, 
Lula, in significant ways departing from his past--a candidate 
who had been described as a rabblerouser and a radical in the 
past--the fundamental continuity between the policies, economic 
and social policies, of the outgoing government and the 
incoming government, and the themes, Mr. Chairman, that you 
emphasized of a vigorous civil society.
    In your previous questioning, of Secretary Jacobson, both 
of you also asked about international factors. Brazil's 2002 
Presidential election is a very good example of the benign role 
of the international community, including the U.S. Government 
at the time. Because Lula was perceived as a radical 
rabblerouser, there was panic in international bond markets, 
which also adversely affected the exchange rate. It was the 
timely and effective intervention of the International Monetary 
Fund and the Bush administration at the time that helped to 
stabilize those economic circumstances, enabled Brazil to have 
a good election, and, surprising as it may seem for a 
conservative Republican U.S. President and a self-professed 
democratic socialist in Brazil, for the two countries to have a 
good partnership in the years that followed.
    It is in that context that I look with hope, yet admittedly 
not more than that at the Peruvian election, where President-
elect Ollanta Humala has indicated similarly a shift of views 
and even imported Brazilian advisors to try to make this more 
credible, while bearing in mind as well that Lula and Humala 
are not the same. Lula never led a military rebellion; Humala 
did. Lula had never associated his own views with those of Hugo 
Chavez and Humala did, again as my colleague Michael Reid had 
indicated.
    I pay attention to the Mexico 2000 election for other 
reasons: the role of the mass media that interests you and this 
committee; the role of the electoral institution, which is 
equally crucial; the role of the incumbent President and the 
political parties at the time. Let me highlight why I do so. On 
the opposition side, which is one of the lessons I draw for 
Venezuela, it was essential for the long-running opposition 
party, the Partido Accion Nacional, the PAN, to believe that it 
could win and therefore not to shrink away from contesting 
elections, not doing what the Venezuelan opposition did in 
December 2005, namely, to abstain and enable Chavez's political 
forces to win every seat in the national Parliament.
    To believe that you can win also means that you believe you 
can challenge electoral fraud, admittedly with the cooperation 
of others, which is the next point that I want to make. The 
Mexico 2000 Presidential election was one of many where 
international and domestic election observers were important. 
It included the NDI and the IRI. We, fellow witnesses, were 
chatting before about that election before this session 
started. As we look ahead at Latin American elections, there is 
an important role for the international community in such 
election observation.
    On the international side, in Mexico 2000 the Clinton 
administration had effectively signaled, along with Wall Street 
and other international financial markets, that the key was a 
good election, not whether Candidate A or Candidate B were to 
win it, and that was effectively communicated.
    Next, I simply want to underline my agreement with the 
themes that both of you, Senator Menendez and Senator Rubio, 
have indicated with regard to Venezuela. The issues there are 
not just whether one in general agrees or disagrees with Hugo 
Chavez, but the politicization of the electoral institutions, 
the aggressive intimidation of the press, including the 
shutdown of independent mass media organizations, the 
aggressive undercutting of the rights of civil society both 
under international human rights conventions and Venezuela's 
own constitution, the intimidation of opposition political 
leaders, including potential Presidential candidates, and the 
abuse of executive decree powers.
    It is, as you noted in your opening remarks, Mr. Chairman, 
about to be the 10th anniversary of the Inter-American 
Democratic Charter. It remains a viable, valid, and I hope more 
effective document, difficult as it is, appropriate as it is, 
to coordinate U.S. policies and the work of our allies and 
friends through a multilateral institution that is at times 
cumbersome, but it is the most effective path that we have.
    Thank you.
    [The prepared statement of Dr. Dominguez follows:]

                Prepared Statement of Jorge I. Dominguez

    Rabble-rouser. Radical. Left-winger. Threat to prosperity. 
Dangerous socialist. These and other adjectives were used to describe 
Luiz Inacio ``Lula'' da Silva from his appearance in the late 1970s on 
Brazil's national political stage until his first election as President 
of Brazil in 2002. During the 2002 Presidential campaign, domestic and 
international markets continued to view Lula as a grave threat. 
Interest rates spiked on Brazilian bonds; there was also exchange-rate 
turmoil.
    In retrospect, Brazil's 2002 Presidential election was a watershed 
in the history of democratic and market consolidation in Brazil. It 
demonstrated the effectiveness of Brazil's constitutional order through 
the public formulation and expression of opposing views and the fair 
and effective operation of its electoral institutions under the rule of 
law. It featured the role of parties, civil society, and a free mass 
media.

  <bullet> It was the first time in 40 years that one popularly elected 
        Brazilian President passed the sash of office to another.
  <bullet> It completed the process of incorporation of all Brazilian 
        social classes into the political process.
  <bullet> It passed political power from the governing party to the 
        opposition party.
  <bullet> The election was hotly contested, and there was free, 
        vigorous mass media coverage and broad and deep engagement from 
        civil society and political parties.
  <bullet> Lula signaled transparently during his 2002 campaign that he 
        and his party had changed their views and would henceforth 
        ``hug'' the political center.
  <bullet> Lula and his party went on to fulfill the promises made 
        during the campaign, including significant continuity, with 
        plausible policy adjustments, of the market-oriented economic 
        policies as well as the social policies of his predecessor.

    Brazilian citizens and their leaders constructed this democratic 
transition and consolidation. International factors were secondary, but 
not insignificant. During the 2002 Presidential campaign, the Brazilian 
Government required support from the International Monetary Fund to 
stabilize the economy and calm international bond and exchange-rate 
markets. During the campaign, Lula publicly endorsed the IMF 
stabilization plan and promised to implement it upon his election as 
President, which he did. The U.S. Government supported the agreement 
between the IMF and Brazil. Indeed, it is no hyperbole that the IMF and 
the Bush administration contributed to Lula's election as President of 
Brazil and, in that way, contributed as well to the consolidation of 
Brazil's democracy and prosperity.
    Democratic politics is, therefore, built at home, but it is easier 
to build it with a supportive international community.
    This experience may be pertinent to an assessment of Peru's 
President-elect Ollanta Humala. As had been the case with Lula during 
his 2002 Presidential campaign, Humala made it clear during his 2011 
Presidential campaign that his own views had changed, declaring that he 
wished to emulate Lula's experience, including through the importation 
of Brazilian campaign advisors. True enough, the pre-Presidential 
political biographies of Lula and Humala are quite different. Humala 
once helped to lead a military rebellion; Lula never did. Lula founded, 
shaped, and led a political party; Humala's political appeal has 
remained personalistic. Humala's previous Presidential campaign had 
sought to emulate Chavez, not Lula. Yet, recent Peruvian history has 
witnessed an uninterrupted string of Presidents who moderate their 
policies upon their installation in office. Humala has a historic 
opportunity now to implement the social policies that Peru has long 
needed and for which it finally has the economic resources.
    Now, consider Mexico. It was 11 p.m. on July 2, 2000. The 
television networks, broadcasting from the Federal Electoral Institute 
(IFE), turned their cameras on the Institute's president, who was about 
to give the preliminary results of the voting in Mexico's 2000 
Presidential election. Speaking in a rushed monotone, he reported on 
the ``quick counts'' and other technical means of verifying the voting 
in advance of the complete count. He referred to statistical 
significance or the lack thereof of these various tests, making the 
dramatic appear dull; he concluded on the cautious note that Vicente 
Fox, the candidate of an opposition party, Partido Accion Nacional 
(PAN), seemed ahead.
    With a break that lasted only seconds, the television networks 
turned their cameras on President Ernesto Zedillo at his Presidential 
office in Los Pinos. Zedillo, dressed formally for this occasion, was 
wearing the tricolor Presidential sash across his chest. Behind him 
were two icons of republican Mexico. One was a gigantic flag of Mexico. 
The other was a portrait of the 19th-century President Benito Juarez. 
Zedillo spoke deliberately, pausing for effect and clear public 
understanding. He noted that the audience had just heard the 
preliminary results from the IFE president. Without hesitation, he 
boldly congratulated Vicente Fox on his election as President of Mexico 
and pledged that his administration would cooperate fully during the 
upcoming 5-month transition period. He called upon his party, the 
Partido Revolucionario Institucional (PRI), to be proud of a long 
record of accomplishment in the transformation of Mexico and, in that 
spirit, to support the election outcome.
    Again with a short break lasting only seconds, the television 
cameras next turned their lights on the PRI headquarters, specifically 
on the party's Presidential candidate, Francisco Labastida. All PRI 
leaders looked stunned. Some in the crowd shed tears. Then someone was 
sufficiently inspired to start singing the national anthem, and others 
joined in. The special transmission in its three parts lasted about 10 
minutes. It would be followed with images of Fox supporters celebrating 
in downtown Mexico City and elsewhere as the evening wore on.
    This account illustrates five key changes in Mexican national 
politics that have endured.

  <bullet> Television and radio were the means to communicate the 
        remarkable transfer of political power that had just occurred.
  <bullet> The constitutional reorganization of Mexico's electoral 
        institutions proved essential to permit and enact a free 
        election.
  <bullet> Free, professional public opinion polling and the associated 
        technical work of academics was an important instrument for 
        this transition.
  <bullet> The leadership of the outgoing President was essential to 
        impart confidence that the election outcome would be respected.
  <bullet> Both the long-ruling Institutional Revolutionary Party (PRI) 
        and the long-lived opposition party, the National Action Party 
        (PAN) had changed to make a free, fair hotly contested election 
        possible.

    The slow process of transition toward democracy in Mexico, and the 
prior experience of democratic transition in the 1980s in Brazil, 
greatly facilitated and contributed to the experiences of democratic 
consolidation in both countries in the 2000s.
    In Mexico's case as well, Mexican citizens and their leaders 
constructed democratization, yet international factors played a 
supportive role. In Mexico, the clear message from international 
financial markets was to hold a good election, not to place bets for 
one candidate and against the other. On election eve, only the 
candidates from the PRI and the PAN had a reasonable chance of winning. 
Wall Street, London, Hong Kong, the Clinton administration, and other 
governments conveyed the same message: Let the election be free and 
fair--either candidate would govern Mexico as an international good 
partner.
    The construction of Mexico's democratic transition had also 
required that opposition leaders and their supporters should shed the 
self-paralyzing expectation that the long-ruling party would commit 
electoral fraud and abuse. This is a pertinent experience from Mexico's 
near-past to today's circumstances in Venezuela. One must believe in 
the possibility of winning in order to be able to win.
    Mexico's 2000 Presidential election, as had been the case in its 
1994 and 1997 national elections, featured as well a significant number 
of international and especially domestic civil society observers. 
Domestic and transnational civil society thus played a significant 
role, including among them the International Republican Institute and 
the National Democratic Institute. Election observation, in Mexico and 
elsewhere, is an important contributor of the international community 
to democratic practice.
    Most Latin Americans live in Brazil and Mexico. Most Latin 
Americans, therefore, experience democratic governance, market-oriented 
economic policies, more effective social policies, open political party 
contestation, free mass media, and have ample opportunity to 
participate in civil society organizations. The principal story in 
their respective processes of democratization was written at home, 
though in each case a benign international environment was a helpful 
secondary consideration.
    The U.S. Government, under Presidents Bill Clinton and George W. 
Bush, as had been the case as well under Presidents George H.W. Bush 
and Jimmy Carter and during the second term of President Ronald 
Reagan's administration, contributed to these democratic processes 
through a combination of self-restraint and timely yet modest positive 
inducements. Transnational civil and political society played a 
generally constructive role as well. The political effect of 
international markets was benign in Mexico but it made the democratic 
process temporarily more difficult in Brazil.
    A similar story regarding the national construction of democratic 
processes and a supportive role for the international community, 
including the United States, can be told with regard to Chile in 1990; 
Uruguay in 2004 when the first President from the Left, the Frente 
Amplio's Tabare Vazquez, was elected President; or the Dominican 
Republic in 1978 and 1994-96. Domestic and international election 
observation was also crucial in these pivotal elections in Chile and 
the Dominican Republic.
    There is, however, a quite different sequence for the relationship 
between domestic and international factors as they may affect the start 
of democratization. A cataclysmic international event may reshape 
structures and incentives to foster a democratic transition. This was 
the impact of the end of the cold war and the collapse of the Soviet 
Union in Europe. It was the starting point for the democratization of 
former Communist Eastern Europe. The end of the cold war helped also to 
bring to an end the wars swirling in Central American countries in the 
1980s, with peace and democratization in Nicaragua in 1990, El Salvador 
in 1992, and Guatemala in 1996. Domestic and international election 
observers were essential in these Central American transitions. Defeat 
at war is another cataclysmic event; it contributed to democratization 
in Greece in the early 1970s and in Argentina in the early 1980s. These 
are, to be sure, unusual, and infrequent events.
    The same framework for analysis sheds light on Venezuela, which is 
the most noteworthy example in the Western Hemisphere of a departure 
from constitutional liberal democracy, the concentration of 
disproportionate power in the hands of the President, the imposition of 
constraints on the mass media and civil society organizations, and 
frustrated international initiatives.
    Venezuelan voters have repeatedly elected Hugo Chavez President of 
Venezuela. Unlike Mexicans in 2000 or Brazilians in 2002, Venezuelans 
have yet to vote the incumbent or his party out of office. In various 
plebiscites, Venezuelans have also supported a number of constitutional 
changes that have greatly strengthened Presidential powers in 
Venezuela. In the December 2007 plebiscite, however, Venezuelan 
citizens defeated Chavez-proposed constitutional amendments that would 
have dramatically strengthened Presidential powers even more and 
weakened nearly all means to hold the executive accountable. Voters 
stopped the worst outcome but have acquiesced in other constitutional 
changes that have weakened the constitutional bases for democracy.
    The weakening of democratic institutions in Venezuela has not, 
alas, been caused by Chavez alone. In 1998 and subsequent elections, 
Venezuelan voters also abandoned the two major political parties, the 
social democrats and Christian democrats (Accion Democratica and COPEI) 
that had shaped democratic practice in Venezuela since the 1940s. In 
advance of the December 2005 legislative elections for the National 
Assembly, opposition leaders decided to boycott the elections in the 
hope that their failure to participate would discredit the result. The 
main effect was that Chavez's partisans won every seat and left the 
opposition without a voice in the National Assembly. This is also why I 
referred to Mexico's opposition experience, above, in thinking about 
Venezuela's opposition.
    The Venezuelan opposition has demonstrated renewed signs of life 
and much better strategic sense in recent years, winning nearly half of 
the votes in the most recent national legislative election and 
undertaking the work necessary to choose a single unity candidate in 
time for December 2012 Presidential election to contest Chavez's 
expected bid for reelection.
    Whatever anyone's assessment may be regarding the behavior of 
voters or opposition leaders, there are appropriate reasons for concern 
regarding the following issues in Venezuela:

  <bullet> The extent of partisan politicization of electoral 
        institutions, which raises doubts about the fairness of the 
        election process.
  <bullet> The severe constraints on freedom of the press and the 
        systematic attempt to undercut unfairly the public expression 
        of views critical of the government.
  <bullet> The comparably severe constraints on civil society 
        organizations that demonstrate independence from the 
        government, both those entities that had long existed (unions, 
        business federations) and other that emerged in response to the 
        Chavez government.
  <bullet> The arrest, or induced exile, of significant opposition 
        leaders, including the major potential opposition presidential 
        candidates for 2012.
  <bullet> The use of executive decree powers both to enact policies 
        that should have emerged from the normal legislative process as 
        well as to implement these antidemocratic practices.

    In such a context, the impact of the international community has 
been frustrating and frustrated. In the early years of the past decade, 
the Organization of American States (OAS) sought to protect the public 
space for fair elections. The role of the OAS was positive in this 
regard; voters continued to support Chavez, however. In the early years 
of the past decade, U.S. Government officials adopted a publicly 
confrontational approach toward Chavez. No doubt many of those 
criticisms were accurate, and understandable, but they backfired. They 
made it easier for Chavez to consolidate his core political support and 
to blame the United States for both the failed 2002 coup attempt to 
overthrow him and other difficulties. The prolonged rise in the 
international price of petroleum, which characterized the entire past 
decade until late 2008, enormously increased President Chavez's 
capacity to build support at home and abroad.
    The decision of the Bush administration in its second term, 
continued under President Obama, to tone down public confrontation with 
Chavez and better coordinate policies with Venezuela's neighbors has 
deprived Chavez of the ease of exporting blame but it has also not had 
much impact one way or another on Venezuela's slow march toward 
autocracy.
    Constitutional democracy and the rule of law are valuable in 
themselves. They may also contribute significantly to prosperity. 
Autocrats may promise policies that domestic and international 
investors like, but those policies are credible only for the duration 
of the autocrat's rule. In constitutional liberal democracies as they 
have been evolving in Brazil, Mexico, Chile, and Colombia, among 
others, policies change as different Presidents and political parties 
take their turn at governing but the fundamental rules of 
constitutionality--and the framework of fundamental economic rules, 
therefore--persist over time. The credibility of promises to investors 
under such democratic circumstances is much higher and effective. Such 
credibility helps to explain why these four countries have out-
performed their own economic histories under democratic rule.
    Venezuela, in contrast, has suffered from lack of domestic and 
international investment, and from capital flight, for a variety of 
reasons, but one of them is that President Chavez's promises and 
policies are time limited--they may last while he is President but it 
is unclear, even doubtful, that they would outlive his Presidency.
    Democratic constitutionalism serves prosperity in other ways. 
Voters, the national legislature, and the mass media may hold the 
executive accountable, and such informational transparency makes it 
more likely that errors would be corrected. Voters may, in democratic 
elections, defeat incumbents, thereby making an even sharper 
correction. Under effective interparty competition and legislative 
oversight, the likelihood of abuse of power declines. These elements, 
too, help to distinguish between the poor quality of governance in 
Venezuela and the better quality of governance in the region's 
constitutional democracies.
    Democracy and prosperity do not always go hand in hand. It is 
possible to have one without the other, and Latin America's political 
and economic history is an apt example of such past disjunctions. 
Today, however, the region's governments cluster in ways unlike during 
most of the region's history. Today, the more effective constitutional 
democracies have also the better prospects for prosperity, and the 
countries with sound economic policies are also those where democratic 
practice is stronger. On the positive side, this is a ``virtuous'' or 
reinforcing path about which there is much to celebrate. On the 
negative side, it is a worrisome path that may lead to further abuse 
and poor performance.
    In both instances, Latin Americans have constructed their own 
history. It is our task from afar to provide the supportive environment 
that helps to foster democratic practices, stand with their citizens 
vigilant for the respect of rights enshrined in international treaties, 
and be ready to support the principles of the Inter-American Democratic 
Charter, under the auspices of the Organization of American States--a 
Charter, signed on the fateful day, September 11, 2011, whose 
principles were valid then as well as today.

    Senator Menendez. Thank you.
    Mr. Fisk.

    STATEMENT OF DANIEL FISK, VICE PRESIDENT FOR POLICY AND 
    STRATEGIC PLANNING, INTERNATIONAL REPUBLICAN INSTITUTE, 
                         WASHINGTON, DC

    Mr. Fisk. Mr. Chairman, Ranking Member Rubio, thank you for 
the opportunity to present some observations from the 
perspective of a nongovernmental organization involved in 
democracy promotion. The International Republican Institute has 
implemented programs in Latin America for more than 25 years. 
We currently are in 11 countries.
    With this year representing the 10th anniversary of the 
Inter-American Democratic Charter, this hearing provides a 
useful reminder that U.S. interests are fundamentally connected 
to the state of democracy in the Americas. Let me join the 
chorus in terms of the good news. Over the past 30 years, we 
have witnessed throughout the region the broad acceptance of 
elections and other democratic practices as the means to select 
leaders and legitimize governmental authority.
    The fact is that more of the region's citizens are today 
participating in the political and economic decisionmaking of 
their respective countries than ever before.
    Now, this is not to argue that some form of democratic 
perfection has descended upon the hemisphere. Rather, it is to 
note that the acceptance of democratic practices are now a 
foundation of citizen expectations throughout the region, 
regardless whether individual leaders genuinely support or 
fully implement such practices.
    There are exceptions and challenges to this general 
positive growth of democracy. Uncontrolled crime and 
authoritarian populism I would identify as the two most 
significant challenges.
    The role of constitutional order and the rule of law are 
fundamental to a country's democratic health. But these terms 
can also be misleading, as in the case of Cuba, as you two 
gentlemen have made reference. That nation has a constitutional 
order and a body of laws, yet remains the antidemocratic 
outlier in the hemisphere.
    The deepening of democracy requires a constitutional order 
that protects the rights of individuals, provides for the 
responsible division of governmental authority, and promotes 
respect for the rule of law. However, over the past decade we 
have seen instances where constitutional changes have 
undermined democratic institutions and instead concentrated 
power in a single office or person.
    Constitutional order, like the rule of law, should be 
neutral, not an enshrinement of any particular political 
tendency. It should include constraints on governmental action, 
not just limit the range of citizen behavior. As for the rule 
of law, too many countries still suffer from an arbitrary 
application of the law, not from a lack of laws. In some 
instances the law is dysfunctional by design, generally by the 
design of a small segment of the population who seeks to 
empower and enrich itself at the expense of others. This I 
think is at the core of authoritarian populism.
    Weak institutions, including civil society structures, and 
attacks on journalists and a free media also contribute to a 
situation of democratic uncertainty. Regardless of the past 
reasons for this stage of affairs, democratic practice remains 
most successful where there are competing centers of 
governmental authority, where civil society has an opportunity 
to meaningfully engage decisionmakers, and where the media can 
vigorously report on the actions of those in office.
    As we've discussed here earlier, today's Venezuela is the 
region's poster country for the challenges that confront the 
consolidation of a democratic society. While Mr. Chavez's rise 
to power 12 years ago represented popular disapproval of 
government run by wealthy elites, his government, however, has 
manipulated an independent judicial system, eliminated any 
sense of a predictable rule of law, and eviscerated the 
responsibilities of other independent bodies, including the 
national legislature.
    Worrisome is that we have seen elements of this model 
copied in Bolivia, Ecuador, and Nicaragua, and we share the 
open question on what happens with Peru. But by comparison 
there is Colombia, where a popular President with an 80-percent 
approval rating stepped down when a proposed third term in 
office was deemed unconstitutional by an independent judicial 
body. A free competitive election chose his successor. 
Democracy is about more than a leader's approval rating and 
Alvaro Uribe understood that and respected that.
    In closing, Mr. Chairman, we should keep in mind that many 
in the hemisphere want our help in building and strengthening 
democratic institutions and practices. Such assistance is not a 
matter of imposing U.S. structures and values. Each country has 
to develop its own path. However, as partners in this 
experiment called democracy we can and should respond to those 
seeking to learn from other's experiences and not only from the 
North American experience. More importantly in my view, by 
supporting those who favor freedom and democracy we are 
contributing to the betterment of all who live in this 
hemisphere.
    Thank you.
    [The prepared statement of Mr. Fisk follows:]

                  Prepared Statement of Daniel W. Fisk

    Mr. Chairman, Ranking Member Rubio, and members of the 
subcommittee, thank you for the opportunity to present some 
observations on ``the state of democracy in the Americas'' from the 
perspective of a nongovernmental organization involved in democracy 
promotion. The International Republican Institute (IRI) has implemented 
democracy programs in Latin America for more than 25 years. Currently, 
we work in 11 countries in Latin America.
    We are all aware that the vast majority of attention in the foreign 
policy arena is currently--and rightly--focused on the historic events 
taking place in the Middle East, the continuing efforts in Afghanistan 
to stabilize that country's situation, and the ongoing challenges of 
rebuilding in Iraq and addressing other aspects of the war against 
terrorism.
    With the 10th anniversary of the Inter-American Democratic Charter 
on the horizon, this hearing provides a useful reminder of the 
importance to the United States of our Western Hemisphere neighborhood. 
As members of this subcommittee know well, this hemisphere remains 
critical to any efforts by the United States to create jobs, to become 
less energy dependent on unstable suppliers, to address the challenge 
of illegal drugs and associated criminal activities and violence, and 
to maintain our overall national security. The state of democracy in 
the Americas is fundamentally connected to all of these U.S. interests 
and to the future betterment of the human condition throughout this 
hemisphere.
    Before addressing the specific questions outlined in the 
Subcommittee's invitation to testify today, it is important to remember 
that the overall ``democratic trend line'' in the Americas is one of 
notable achievement during the last 30 years. It is fair to describe 
the region as generally democratic, with some notable exceptions, of 
course. During this time:

  <bullet> We have witnessed the acceptance of elections as a regular 
        exercise to select leaders and legitimize--or attempt to 
        legitimize--governmental authority.
  <bullet> We have witnessed the broad rejection of military 
        dictatorships and of an overt political role for militaries.
  <bullet> And we have generally seen advances in respect for human 
        rights, as well as the opportunities for citizens to better 
        their lives in health, education, and economic status.

    The fact is that more citizens are today participating in the 
political and economic decisionmaking processes of their respective 
countries than ever before.
    This is not to argue that ``democratic perfection'' has descended 
upon this hemisphere. Rather, it is to note that the acceptance of 
certain values and processes are now at the base of citizen 
expectations throughout the region, regardless whether individual 
leaders genuinely support or fully implement such practices.
    In part this acceptance has historical roots. While the long-term 
record of this hemisphere's politics is mixed, there is a democratic or 
reform legacy beyond that of the United States and Canada. For 
instance, the democratic footprint in many Caribbean nations is all-
too-often overlooked. The commitment to democratic practices remains 
strong and has served those nations well, even if some only received 
their formal independence in the 1960s.
    In Costa Rica, Uruguay, Argentina, Colombia, Panama, and Chile, 
despite periods of civil conflict or authoritarian rule, reform 
undercurrents have endured. In other countries in the region over the 
last 30 years, we have seen conditions change, in some instances with 
external support, resulting in an embrace of democratic norms and 
processes, albeit with continuing challenges. Examples include Mexico, 
El Salvador, Guatemala, Honduras, Peru, Paraguay, and Brazil.
    Are these countries examples of perfectly fine-tuned democracies? 
Certainly not--and most would say that our own democracy is still 
seeking to fulfill its ideals. However, what we see in many of these 
democratic transition ``success stories'' is an appreciation for--and 
value placed upon--democratic institutions and broader citizen 
participation.
    This hemispheric embrace was memorialized in September 2001--
ironically, on September 11--when the 34 active member countries of the 
Organization of American States (OAS) unanimously approved the Inter-
American Democratic Charter. In the words of the Charter, ``the peoples 
of the Americas have a right to democracy and their governments have an 
obligation to promote and defend it'' (Article 1).
    Adherence to the objectives of the Charter remains uneven. 
Regardless, it remains the normative standard for this hemisphere and 
should be the measure by which countries are evaluated.
    Obviously, there are exceptions and challenges to the general, 
positive growth of democracy in the region. As noted in the 2011 report 
of Freedom House, Freedom in the World, ``uncontrolled crime and 
authoritarian populism'' are threats to the region's democratic 
progress. IRI sees the presence and/or effects of these threats in a 
number of countries in which we work, and countries where institutions 
are weak, corruption is rife, and citizens do not have confidence in 
the authorities are especially vulnerable to the consequences of 
uncontrolled crime or authoritarian populism, or both, as we are seeing 
in Venezuela, for example.
    The issues, then, at the heart of this hearing--the rule of law, 
constitutional order, concentration of power, and the role of civil 
society and a free press--are elements in deterring and reversing these 
threats.
    The role of constitutional order and rule of law are fundamental. 
But these terms can also be misleading, as in the case of Cuba. That 
nation has a ``constitutional order,'' at least to the extent that it 
operates, in name, under a so-called constitutional document and a body 
of laws, but both are used to cloak a totalitarian structure with a 
veil of legitimacy. Cuba remains the hemisphere's antidemocratic 
outlier, even when placed side by side with today's Venezuela, 
Nicaragua, Ecuador, or Bolivia.
    Constitutional order also is subject to manipulation. There have 
been a variety of constitutional reforms and challenges to 
constitutional order over the past decade, from Venezuela, Bolivia, and 
Ecuador to Colombia. In some instances, constitutional changes, 
approved and legitimized by popular plebiscites, have undermined 
democratic institutions, transparency and accountability, allowing for 
the concentration of power in a single office or person. For example, 
most recently, Ecuador held a referendum that consolidated the power of 
the President over the judiciary and the media.
    If there is good news in these processes, it has been in the 
participation of large numbers of citizens; the bad news is the 
significant erosion of the checks and balances essential to democratic 
governance that has been masked by feel-good measures, such as shorter 
work hours or other perceived benefits, or by issues that distract 
voters from the sponsor's wider political agenda. Again Ecuador's 
recent referendum offers an example: in its constitutional referendum, 
the most widely publicized question had to do with the proposal to curb 
casinos.
    Whereas a persistent challenge has been the treatment of 
constitutions as ``multiple choice'' documents--with leaders 
determining which provisions to respect and which to ignore--the region 
has recently seen constitutional amendments that result in the transfer 
of authority to a single officeholder who wields arbitrary authority 
and is not constrained by the country's constitution. In effect, the 
constitution has become the basis for the exercise of authoritarian 
power over facets of everyday life.
    The deepening of democracy requires a constitutional order that 
protects the rights of individuals, provides for the responsible 
division of governmental authority, and promotes respect for the rule 
of law. Constitutional order, like the rule of law, should be neutral, 
not an enshrinement of any particular political tendency. It and the 
law should include rules or principles that constrain governmental 
action, not just limit the range of citizen behavior.
    As for the rule of law, several countries in the Americas have 
experienced the arbitrary application of the law, not a lack of laws. 
In too many instances, the law is dysfunctional by design--generally 
the design of a small segment of the population which seeks to benefit 
and enrich itself at the expense of others. This, in many ways, is at 
the heart of today's authoritarian populism: the arbitrary manipulation 
of the law with the objective of consolidated political power under the 
guise of ``participatory democracy.''
    In part, this situation has evolved as a result of weak or fragile 
institutions, including weak civil society structures. In a number of 
countries, the governmental structural underpinnings of a President, 
Cabinet Minister or legislator are wholly reflective of the 
personality, not some free-standing structure. The need goes further 
than the existence of an apolitical civil service--which is sorely 
needed in many countries. As a former State Department colleague once 
put it, in Latin America, you can talk about presidents but not 
presidencies, ministers but not ministries. Often the structure, to the 
extent there is one, exists as a reflection of the personality, being 
little more than a shell which is filled by the appointments of the 
next occupant, not as an independent institution focused on the 
national interest.
    This institutional weakness is also seen in other branches of 
government, including the institutions that should be a counterweight 
to concentrated executive power, including national legislatures and 
judiciaries. Departmental and municipal governments also often suffer 
from a reliance on the national executive for resources, and the same 
has been found to occur with other independent bodies, such as national 
election commissions. Sometimes the institutional weakness of these 
other governmental entities is exacerbated by the constitutional 
division of power; sometimes it is the consequence of neglect or the 
malignancy of corruption.
    Some observers have ascribed this situation to the caudillo 
(``strongman'') tradition in Latin America: the blurring of 
governmental authority in one central figure. This situation also has 
generated a persistent debate on ``presidentialism'' versus 
``parliamentarism'' in Latin America. Regardless of the historic basis 
for power being centralized in one person, or one's views on 
presidencies versus parliaments, democratic practice remains most 
successful where there are competing centers of governmental authority, 
where civil society has the opportunity to meaningfully engage 
decisionmakers, and where the media can vigorously report on the 
actions of those in power.
    It is for these reasons that IRI sees significant value in 
developing and strengthening the multiple elements that are fundamental 
to democratic governance, from national legislative bodies, including 
those in Mexico, Colombia, and Peru, and political parties to local or 
municipal governments, civil society organizations, and a robust media.
    Today's Venezuela is the poster country for the challenges that 
confront the consolidation of genuine democratic practices and norms.
    In Venezuela there is clearly a sense of ``democratic right and 
wrong'' among the people, but the institutions in that country are 
fragile and earlier governments failed to meet the needs or 
expectations of a significant segment of the population. This situation 
has allowed one man--Hugo Chavez--and his allies to tip the balance of 
power in his direction by manipulating the once-independent judicial 
system, eliminating any sense of predictable rule of law, and 
eviscerating the checks and balances that should be provided by the 
national legislature. Through the consolidation of power in the 
executive, Mr. Chavez has been able to seize private property and 
wealth, obstruct national-level political opposition, punish a free 
media, harass civil society, and perpetuate his own power through self-
serving so-called ``constitutional reforms'' and plebiscites.
    While Mr. Chavez's rise 12 years ago represented a popular 
disapproval of self-interested government run by wealthy elites--his 
remaining in power represents a virus to which several countries in the 
region have fallen victim. Bolivia, Ecuador, and Nicaragua can 
certainly be included in that grouping. Presidents Morales and Correa, 
respectively, have copied President Chavez's blueprint for 
consolidating powers under the guise of ``popular'' and 
``participatory'' mechanisms. Nicaragua's President, Daniel Ortega, has 
used Mr. Chavez's money--the use of which is not subject to 
accountability by any Nicaraguan--to exert influence over the media and 
other sectors of society and government in an effort to perpetuate his 
hold on power. In November, Mr. Ortega will attempt to extend his hold 
on power through scheduled national elections. Already there are 
concerns by many Nicaraguans that the electoral field is tilted in Mr. 
Ortega's favor.
    By contrast, there is the experience of Colombia. As the 2010 
Presidential election cycle approached in Colombia, a segment of the 
citizenry voiced a desire for Alvaro Uribe to run for, and serve, an 
unprecedented third term in office. To do so, the Colombian 
Constitution would have needed to be amended via a popular referendum. 
However, in one of the strongest pieces of evidence that democratic 
institutions and order have come a long way in Colombia, the country's 
highest court ruled that a referendum was unconstitutional. As a 
result, Colombia's President--with an 80-percent approval rating--ended 
his term in office. A free, competitive election selected his 
successor.
    Mr. Chairman, I will close with two general points: first, we 
cannot continue to confuse elections with effective or democratic 
governance. As I noted earlier, the region has embraced elections on a 
regular and recurring basis. However, it still struggles with 
governance. Too often, we have given significant attention to an 
election and then turned away, thinking that the job is largely done. A 
fair, transparent election merits commendation. However, it does not 
change a dysfunctional governmental structure; it does not overcome the 
endemic challenges to the maintenance of a democratic polity. We have 
learned this lesson in a number of countries.
    Yes, the United States has attempted to assist countries in post-
election/post-transition situations. At the same time, this attention 
has had its deficiencies--not intentionally but because we often 
consider governance as little more than a technical problem to be 
addressed. Our programs tend to shy away from helping democratically 
elected officials with the small ``p'' political aspects of governing, 
which involves continuing interaction between officials and citizens--
an interaction that is at the core of democratic governance.
    This type of assistance must include more than the provision of 
technical tools. It may be useful to have software to track a country's 
budget or cases in its court system; but such software is irrelevant to 
the average citizen if services cannot be delivered, if bureaucrats and 
judges perform based on graft, or if citizens' views are ignored by 
decisionmakers as policies are being developed and implemented.
    Such assistance is not a matter of imposing U.S. structures on 
Latin America. Each country has to develop its own path. As partners in 
this experiment called democracy, we can respond to those seeking to 
learn from the experiences of others, and not only from the North 
American experience. There are many models of successful democratic 
development.
    Second, and related to the above, we should keep in mind that many 
in this hemisphere want our help in the building and strengthening of 
genuine democratic institutions and practices. The peoples of this 
hemisphere ``get'' freedom and democracy. By supporting them, we are 
contributing to the betterment of all who live in this hemisphere.

    Senator Menendez. Thank you all for your very insightful 
testimony.
    Let me start by taking off where you just finished, Mr. 
Fisk. What is the appropriate role for the United States in 
helping civil society further promote democracy where it is not 
as vibrant and strengthening it where it is?
    What are the top two or three things the United States 
should do?
    Dr. Dominguez.
    Dr. Dominguez. One effective instrument--and it speaks to 
Senator Rubio's question of Secretary Jacobson--is election 
observation. Election observation is a set of procedures, a set 
of instruments, which has developed over a period of time. It 
can be effective, it has been effective in a number of 
entities. Some of it may be done by any civil society 
organization in various countries, including the United States. 
But some of it, which I would commend to both of you, is the 
work that IRI and NDI have done over time; this is a specific 
issue. In my own personal experience with election observation, 
working with NDI and IRI has been unfailingly very rewarding 
and I believe effective.
    Let me give you a different example altogether. It may not 
work, but just to think out loud. So beginning some years ago, 
the state of Zacatecas in Mexico led the way, other entities 
elsewhere in Mexico followed it accordingly, to try to harness 
some of the remittances from Mexican citizens living in the 
United States, not just to help individual family members, but 
also to help to develop social objectives, community 
objectives, and small civil society groups at the local level.
    It developed eventually into what is often called the 
three-for-one funding. For every dollar that comes from a 
Mexican in the United States to a family and in a local Mexican 
community, Mexican local and state and federal entities 
contribute a dollar. The question is whether some of that could 
be augmented or facilitated through the charitable features of 
the U.S. Tax Code, to facilitate and to stimulate those kinds 
of commitments where the bulk of resources would come, not from 
the U.S. taxpayer, but from individual citizens who voluntarily 
make these efforts and from governments in Mexico or other 
Latin American countries. This would harness transnational 
civil society, but for the purpose of assisting those in 
particular communities.
    Senator Menendez. Mr. Reid.
    Mr. Reid. Mr. Chairman, I would say firstly it's important 
to avoid kind of crude attempts at promoting regime change. I'm 
struck--from outside, or exporting democracy from outside. I'm 
struck by the kind of broad consensus that I think exists here 
today that that is not the way forward, and I think that's 
good.
    Second, I would say that a lot of this work inevitably 
falls not to the United States Government, but to other 
institutions in American society, and particularly foundations 
and NGOs. I do think that supporting media freedom, pressure 
groups, and watchdogs throughout the hemisphere is absolutely 
vital and they do an important job, and the more of that work 
that is done the better.
    I think Senator Rubio, if I remember rightly, mentioned the 
idea of the United States supporting parliamentary visits by, 
for example, Venezuelan parliamentarians to other, more robust 
democracies in Latin America, and that strikes me as very 
important, because I think that peer pressure at the end of the 
day and taking the peers of Venezuela to be the other Latin 
American countries I think is important.
    Specifically, there is a specific event scheduled next 
year, the Presidential election in Venezuela, which is of 
supreme importance that it should be as free and fair as 
possible. I think election observation may be difficult. It can 
only be achieved through multilateral agreement.
    I would note that I think there's been no conclusive proof 
up until now that the electoral, the actual counting of voting, 
has not been accurate in Venezuela, and it's important to 
mobilize as much pressure as possible to ensure that that vote 
is free and fair.
    Senator Menendez. Let me just follow up on my question. You 
mentioned regime change at the very beginning. Surely you don't 
suggest that assisting civil society to promote greater 
democracy, freedom of the press, and the right to organize, is 
regime change?
    Mr. Reid. I didn't mean to. Of course I don't think that's 
the case. I think there's a distinction. But I think in the 
past some elements within Venezuela, for example, attempted 
unconstitutional regime change and, while they did not, I don't 
think there's any proof they got support from the 
administration here, they got support from some political 
sectors here.
    Senator Menendez. Mr. Fisk, IRI has had a robust Cuba 
program for many years that supports civil society and conducts 
unique polling on the views of Cubans on a variety of issues. 
What do you think has worked? What can we do in places like 
Cuba to help promote civil society and disseminate independent 
voices both on and off the island?
    Mr. Fisk. Mr. Chairman, I first of all believe that the 
programs that have been implemented, while they've had their 
bumps in the road in implementation, overall have overcome, 
been able to overcome, a lot of the challenges presented by the 
Cuban regime specifically.
    In terms of continuing to make sure that we in terms of the 
NGO world get information to the island, that we try to find 
opportunities to get Cubans skills in terms of basic concepts 
of democracy and also some basic organizational skills. In some 
cases we're starting with very, very basics. In some cases it's 
pens and paper. I know there's a lot of excitement about social 
media and that's also a facet in terms of what IRI does. But I 
think that the fundamentals are there in terms of how it works.
    The problem, of course, we always run into is the fact that 
the regime has a very effective security apparatus. The other 
issue we have, frankly, in a forum like this is when we talk 
about it it potentially calls attention to things or to people, 
and you were right earlier to note that a lot of these 
individuals have to make a very tough decision. A U.S. NGO can 
always get up and leave a place. In Cuba it's even tougher than 
others.
    But I do think that in terms of the fundamentals of the 
U.S. program as it exists, I think it's there. From our vantage 
point, of course, we always see opportunities for more. But it 
is a case in which I think that the committee from our 
perspective, the committee should be assured that there are 
things in motion and there are ways to get information--there 
are ways to get these skills to people on the island.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you. Thank you to the panel.
    Here's what I'd like to do, is kind of make a brief 
statement on my views, something that's been on my mind for a 
while. It's very topical. It's what we're talking about today. 
And then get your impressions, your agreement, your 
disagreement both. I'd prefer your agreement, but your honest 
assessment.
    A couple things. First of all, you have governments, and I 
use Cuba as an example, that are not legitimate. In essence, 
they do not have the consent of the people that they govern. 
The only reason why they're in charge is because if you don't 
agree with them they hit you on the head, they put you in jail, 
they exile you, they torment you and your family, you have no 
economic opportunities in the country in general, and 
especially if you don't agree with the government.
    They're illegitimate because they do not govern with the 
consent of the governed. That's one thing. Put that aside for a 
second. In those, I think it's very clear in my opinion where 
the United States should be. We talked--the word ``regime 
change'' was used. I would say to you that anywhere in the 
world where there is an illegitimate government that doesn't 
govern with the consent of the people that it governs, the 
United States should be on the side of the people. And I think 
Cuba is a prime example of that in the Western Hemisphere.
    Then you have a second complication or a second issue we 
face, and that is nations that have democratic institutions, 
but perhaps leaders that are trying to undermine the democratic 
institutions or policies that we don't like. That's really the 
one I want to focus on right now. We're very proud of our 
Republic in the United States and rightfully so, but it hasn't 
been one throughout its history without challenges. We 
certainly had a Civil War 100-some odd years ago over some of 
the issues that faced our country.
    But one of the things that makes us unique is the ability 
to take on some very difficult issues in this country, very 
divisive issues, within the context of the Republic. Richard 
Nixon resigned, but imagine if he had ordered the Army to march 
on the Capitol and prevent his impeachment if that was headed 
in that direction.
    In my own home State, in the year 2000 we had a very close 
election that ultimately decided the election and the 
Presidency of the United States. But when the Supreme Court 
ruled, Vice President Gore accepted it and moved on. Imagine a 
different scenario. It's far-fetched for us to think, but it 
happens around the world, where the Supreme Court rules a 
certain way and all of a sudden the President or whoever is in 
charge orders the army into the street or the cancellation of 
it or what have you, or the intimidation of the Supreme Court 
on how to rule.
    So those institutions by and large, even though we have 
very heated disagreements in the United States, have allowed us 
over time to solve some very contentious issues that other 
countries have had to fight wars over and that have set these 
nations back.
    I was moved reading last night the testimony, the written 
testimony of Mr. Dominguez. You talked about the election in 
Mexico and how it was reported by the voting council, and 
immediately the cameras cut to the President and then they cut 
to the governing party that had been in charge forever and a 
day and how they had to accept it, and how the people broke out 
and started singing the national anthem of Mexico--a really 
pivotal moment in that country's history.
    Imagine how much worse off Mexico would be today, facing 
the challenges it faces, if it didn't have this democratic 
institution, fortified by these elections where power changes 
hands, people aren't happy about it, but they agree with it.
    So here's our challenge. From time to time throughout the 
region there are going to be elections and the person who wins 
may be somebody whose policies we don't like, not policies to 
undermine the institutions, just their policies. We may not 
like their rhetoric and we may not like some of the things 
they've said in the past or promised to do in the future. But 
they won an election. So the challenge there for us--and I'd 
like to have your input on it--is how would you advise, on a 
foreign policy perspective, the kinds of things we can do to 
separate--and maybe there is no concrete steps we can take. But 
how do we separate those two, between the fact that--it's not 
that we don't like Hugo Chavez's policies, for example; it's 
that in addition to being a danger to his neighbors and a bad 
example to the world and an embarrassment to his people and his 
country and a guy who's holding his country back and that's sad 
for Venezuela, he also attempts to undermine democratic 
institutions, maybe not by rigging votes, but certainly by 
intimidating people, certainly by not creating a fair playing 
field where both messages can get out and Venezuelans can make 
an informed decision.
    That's different from somebody who's running and saying 
things we don't like, but ultimately is governing in an 
effective way. So what is your suggestion to reach that level 
of public policy maturity where we can distinguish between the 
election of someone who we don't like what they stand for, but 
they got legitimately elected, and the election of someone who 
then uses that position to undermine democratic institutions? 
Because we should be against that, but ultimately we've got to 
deal with folks that are elected whose policies we may not like 
at a given moment.
    Mr. Reid. Senator, that was a very lucid exposition of the 
issues. I think the answers are not easy. I think it's 
important to stress that the construction of robust 
representative democracies in Latin America is a learning 
process for the societies themselves, and that was really what 
I was trying to get at by suggesting that attempts at regime 
change from outside would not be effective or helpful.
    I think that in the case of Venezuela, I'm sure all of us 
abhor the ways in which the institutions of representative 
democracy have been weakened in Venezuela. But as you implied, 
that has so far been done with the consent of the majority of 
the people, and the narrative that the President has sold to 
the people has that their problems have been as a result of 
outside interventions.
    We might rationally consider that to be a fantasy, but it 
has had been quite effective. So in other words, I think it's 
quite--outside influence is important, but it's important at 
particular moments. It's likely to have much more leverage and 
impact at a moment when the society itself is changing its 
mind, changing its political mind. I think that process is 
under way in Venezuela. It's not complete yet. I think it's 
starting in Bolivia and in Ecuador.
    I think Nicaragua is a slightly different case in that for 
an opposition to win an election you have to have a reasonably 
coherent and plausible opposition and a plausible candidate, 
and I don't think that's the case in Nicaragua.
    So while I think one has to wage the democratic war through 
civil society, support for civil society institutions, I think 
one has to also pick one's battles to an extent.
    Dr. Dominguez. One theme that has come out both in your 
questions and some of the comments from fellow witnesses is an 
important element in all of these key political issues yet it 
is very difficult to shape--it's easier to observe, but it's 
more difficult to shape--and it's statesmanship. So Dan Fisk 
referred to the statesmanship of President Uribe, who, 
notwithstanding his popularity, accepted the decision of the 
constitutional court and stepped down.
    Senator Rubio, you just referred to the Mexico 2000 
election, where President Zedillo, first time ever, 
congratulated his opponent and presided over a peaceful 
transition.
    If I knew more how we could fashion such statesmanship, I 
would feel much more confident about answering your question. 
But I want to begin with a sense of humility that I cannot 
fully address it, precisely because that element, 
statesmanship, is important.
    So a couple of examples. At the time the Brazil 2002 
Presidential election, I could imagine there would be many 
people in the city of Washington at the time who were very 
nervous, just as there were many nervous Brazilians at the time 
fearful that Lula might be elected President of Brazil. That's 
why it was difficult. And yet it worked because there was the 
willingness to give this political process a chance, to see how 
Lula would govern.
    To the great credit, not only of President Lula and 
Brazilians in the first instance, but also of many others, 
including the Bush administration at the time--I have no idea 
what your views were, Dan, but you were an official at the 
time--this worked very successfully. It really is one of the 
accomplishments of which Brazilians, but also the international 
community, should be proud.
    That's the question that bears on thinking about Peru 
today. I don't find myself in general in sympathy with 
President-elect Humala's views, certainly not the early version 
of President-elect Humala, but not even the more current 
versions. But I would want to give him the same benefit of the 
doubt that Brazilians gave to Lula, and that the international 
community gave to Lula, to the case of President-elect Humala.
    It's probably worth remembering that, when Chavez was first 
elected President of Venezuela, he did not run on the platform 
that he has implemented. He was, as Dan Fisk noted, very much 
in opposition to the way Venezuela had been governed. He was 
challenging both political parties and long-entrenched elites. 
But he did not articulate at the time that he would be 
undertaking the kinds of policies that have undermined the 
media, and that have undermined journalists and civil society.
    The difficulty--the real serious difficulty both for the 
Venezuelan opposition and for anybody else, is that this Chavez 
process has occurred very gradually. It was not a military 
coup. It was not a sharp interruption. It was autocracy drop by 
drop. It's much more difficult to respond to the gradual 
installation of autocratic practices. And we have not, we 
collectively, Venezuelans and the opposition or those of us who 
may support them outside of Venezuela, have not done a very 
good job at supporting a democratic process there. It's very 
hard to do so when it happens little step by little step.
    Mr. Fisk. If the committee will indulge me in stepping out 
of my IRI role and taking on kind of from experiences, Senator, 
I've actually, like a number of us who've served in positions 
at various times, whether it's academically or in the 
government specifically, have struggled with exactly the 
question that you've presented. If someone has an answer that's 
a definitive one, it would be useful to know.
    Picking up on Jorge's comment, though, your counterpart 
does make a difference. President Bush took the calculated risk 
in the mind of the Bush administration to reach out to 
President-elect Lula and then President Lula. It was more than 
a ``trust but verify.'' You also had two leaders who understood 
that their national interests--that they had more in common in 
their national interests, shared more than separated us. That 
is to both Presidents' credit in my view, and I'm by the way 
personally pleased that President Obama and President Rousseff 
have continued that path in terms of United States-Brazilian 
relationships.
    But it is more than a ``trust but verify'' circumstance. I 
would argue that Mr. Chavez did not come into office with the 
intent to be our friend or just to get along with us. I think 
he had another agenda. This is, I think, also one of those 
issues that the antidemocrats in the hemisphere learned in the 
1980s they could not shoot their way into power, so that they 
had to learn the democratic practices, but without adopting the 
democratic ethos and internalizing it. They have done a very 
good job and, again as Jorge mentioned, it is a matter that we 
struggle with because, whether we like his policies or not, 
President Chavez is President because he was elected. President 
Ortega was elected. President Morales, elected. You go down the 
list.
    That is a dilemma for us, and one of the questions at the 
base of your question is, in a democratic process can a people 
basically vote themselves into subjugation, even though it's an 
antidemocratic state at the end? There is no good policy 
response.
    But let me tie this back to the chairman's question about 
the instruments. I do think this is a matter in which the 
United States, both in terms of the executive branch, the 
President, and this institution, need to be clear, need to be 
very clear. There needs to be moral clarity in terms of where 
this country is in terms of supporting small ``d'' democrats, 
not only in the hemisphere, but around the world. Ambiguity in 
my opinion works to the advantage of those who are opposed to 
democracy or are misusing democratic means to promote their 
ultimate ends. So that is one thing that's important.
    Second, in the end U.S. civil society is a potent force. 
It's been referenced earlier. There are a lot of, in this 
hemisphere, a phenomenal amount of engagement between private 
American citizens and private American groups with counterparts 
in the hemisphere. There's a phenomenal interaction.
    But when it comes to the political side, there is a very 
small group that do this. I want to be careful because I don't 
want to sound self-serving, but there is basically a very small 
community that does this in this country in terms of the 
outreach to civil society that strengthens them in terms of 
their ability to organize and advocate on behalf--and again, it 
doesn't make any difference whether the issue is education or 
water or gender equality, violence against women, a number of 
things. But there is a very small group that does that.
    Again, the reality is that those of us who do this--and 
I'll step back into my IRI role--is we have funders, and those 
funders are predominantly the United States Government. So this 
is not a plea for funding, but this is just the reality that we 
exist in.
    Then in terms of what the chairman and you, sir, have made 
comments to, it is a matter of making sure that that support 
continues to be there. Again, I think it's one part, the bully 
pulpit. It's the moral suasion. Another, it's the very real 
reality on the ground, and it spreads throughout. You asked 
Secretary Jacobson about country teams, U.S. missions. That's 
an important place as well for both of those elements to be.
    So again, I'm kind of mixing my--wearing two hats here in 
some ways, but hopefully that is a somewhat coherent answer to 
your question.
    Senator Menendez. A few out-of-body experiences in less 
than 5 minutes, moving back and forth. But I think it was very 
insightful.
    I want to pick up on something you said and then ask one 
question. Part of what you said, Mr. Fisk, I know it wasn't a 
plea for funding. I do believe, however, that these engagements 
of IRI and NDI are very important. Part of my concern, one of 
the reasons I have been promoting for several years now a 
social and economic development fund for the Americas is to 
address the root cause of why people turn to the Chavezes of 
the world. They turn because they are in deep economic straits. 
Their governments prior to have not responded to their hopes, 
dreams, and aspirations, and someone comes along who promises 
the world and uses the rhetoric, gets elected, and then uses 
their position of power to transform institutions to keep them 
in power. They might continue to do some populist things, 
though, as was observed, Venezuela is doing worse in terms of 
its economy versus other parts of the hemisphere.
    So it seems to me that one of the things in our national 
interest and our national security interest--forget about being 
a good neighbor, which is a desirable goal as well--is if as 
part of our effort help strengthen the opportunities for 
sustainable development efforts and education efforts in the 
hemisphere, we give rise to a growing universe of citizens of 
the hemisphere who right now sit below the poverty level, are 
in pretty dire straits and very susceptible to what ultimately 
ends up being an antidemocratic result. Hence your statement, 
is it right to go ahead and vote yourself into subjugation at 
the end of the day?
    It seems to me that while this is in the national interest 
of the United States in our own hemisphere, it only gets a 
fraction of our overall international assistance, and is the 
cause of many issues we debate in Congress, such as 
undocumented immigration. People leave their countries as a 
result of dire economic straits or civil unrest. Otherwise they 
would stay. They're beautiful countries. So you want to stop 
the tide of undocumented immigration? One part of the equations 
is creating sustainable development and economic opportunities 
for people in the hemisphere, that will ultimately lead to the 
benefit of the United States in creating greater markets for 
U.S. services and products.
    You want to ensure that there isn't instability in the 
hemisphere in terms of security or that Iran, China, and others 
don't have a deeper foothold than they purport to have in order 
to strengthen our relationship in that respect.
    I hope we can work to create a connection here that says 
that the work of IRI and NDI and some more robust efforts in 
creating development opportunities to have a growing middle 
class in the hemisphere is in the national interest and 
security of the United States.
    My question that I would be remiss if I didn't take 
advantage of Dr. Dominguez's expertise here is on Mexico. It's 
probably the country in the hemisphere we are most closely 
intertwined with by geography, economic trade, security, 
history, and people. And of course that country has in the past 
5 years been challenged by drug trafficking organizations.
    I looked at the Freedom House's report, ``The Authoritarian 
Challenge to Democracy,'' where they drop Mexico's political 
rating from free to partially free. I admire the President of 
Mexico's efforts to take on the narcotics cartels, probably 
more robustly than at any time in Mexico's history, and I 
wonder, considering the challenges, is that a fair observation 
of Mexico, one; and two, how do countries like Mexico, that are 
fighting the narcotics challenge, balance the effort to create 
security and at the same time make sure that their democratic 
institutions don't become authoritarian to some degree in 
response to the security challenge?
    Dr. Dominguez. I have great admiration for President 
Calderon, given the extraordinarily difficult challenges that 
he faces, and the work that he has been undertaking. I think it 
is fair to say that if you or I were journalists in Mexico we 
would feel intimidated, not by the President of Mexico or by 
his government, neither by the Mexican Congress or the 
executive, but by the threat that, if I as a journalist write a 
story, I could be shot as well as by the fear engendered 
through the personal experience of assassination and 
intimidation of journalists in Mexico. This has become a very 
severe issue.
    Similarly, you probably saw the newspaper from Ciudad 
Juarez on the border saying to criminal organizations: Tell us 
what you want us to do; we will censor ourselves if need be. So 
it's not just the actual acts of physical violence, but the 
realization of an important element of the mass media that they 
cannot do the job that they want to do and from which Mexico 
would gain.
    So it's one of those instances where, at the level of the 
working journalist, it is true they are less free than they 
were before. What is unusual about this case is that it happens 
not as a result of the actions of the national government. This 
is not Venezuela. This is not Hugo Chavez.
    One of the things that I do find impressive, again 
difficult as the situation is, is the sustained efforts of the 
Mexican Government, not only to deploy force to combat those 
that are committing crimes and assaulting ordinary citizens or 
journalists and many others, but also to try to train both the 
military and the police in the effective professional role of 
law enforcement and the deployment of troops in ways that 
Mexican security forces had not done in the past.
    So, paradoxically, as Mexico's categorization has been 
dropped to partially free, the security forces are more likely 
to be respectful of human rights now than they were in the 
past. I would give high marks to the role of the government as 
it faces this situation, while at the same time recognizing 
that, yes, it is true that the experience of the ability to 
express freedom of the press, freedom of expression, has 
declined.
    Senator Rubio. I just want to first thank the panel. It's 
been an excellent panel. I appreciate very much your input. I 
was just telling the chairman how insightful this is.
    I wanted to briefly run--I don't want to call it a 
doctrine--a view of the region and see your perceptions of it. 
I've kind of written it down here as we've discussed it. The 
first is categorizing three different types of entities, the 
governments that we run into in the region. The first are 
tyrannies like Cuba, straight-up tyranny. This is a country 
whose government is not legitimate. It oppresses its people. 
The only reason why it's in charge in that country is because 
its people are oppressed. The United States position toward 
that should be that, you're not legitimate, the government, and 
that we are going to--if we have a chance, we'll do everything 
that we can to help your people bring about a change in these 
countries within our national interests and our limitations.
    The second are nations like Nicaragua and Venezuela, that 
do have democratic institutions, but leaders that are trying to 
undermine them. Our view of that is that when those efforts are 
put in place, whether it's intimidating the media or 
intimidating opposition or intimidating dissent, that we're 
going to criticize you for it and we're going to call you out 
for that. We're not going to interfere in your internal 
affairs. We're not going to support things that may undermine 
democratic institutions, because we're not going to add to your 
problems and we're not going to contribute to them, but we're 
also not going to celebrate and certainly not ignore when you 
do things the undermine your democratic institutions.
    By the way, the challenge there will be--we don't have that 
problem now, but the challenge there historically has been, 
well, what if the people undermining the democratic 
institutions are pro-American or pro our view of the world, but 
they're undermining democracy? So we'll have to have discipline 
in order to have credibility with that.
    Then the third is nations that have democratic institutions 
and that respect them. Maybe from time to time those nations 
don't vote the way we want them to at the United Nations, and 
maybe they make some weird alliances that we don't fully 
understand around the world, and we can criticize that. But 
they are free, they are real republics and democracies. We 
should celebrate that. And the price--or the benefit of that 
should be strong relationships with the United States and the 
ability to do business with them, and this is something we 
should celebrate and encourage and show the region that, look, 
we don't want to control your domestic or foreign policy; we'd 
like to influence it, as you'd like to influence ours. But 
ultimately, if you're committed to democratic institutions 
we're going to celebrate that and we want to work with you on 
that, and that really will strengthen our ties.
    Kind of that view of the region as a way to go forward, I 
don't know if you have any impressions on that?
    Mr. Reid. Thank you. Just before addressing that question, 
could I add something to Chairman Menendez's question about 
Mexico? I lived in Mexico as a journalist for about 4 years in 
the early 1990s and I would point out that when I lived there, 
at least for the first 3 years, not a single media outlet in 
Mexico City was free. So I think there's been a big change and 
one should remember that context.
    It is certainly true that there are serious threats to the 
lives and liberties of journalists and media organizations in 
Mexico today, but they tend to be concentrated in remote--in 
areas away from the capital, as was the case in Colombia in the 
1990s.
    Just in terms of the security effort and its implications 
for democracy, I do think it's crucial that Mexico moves faster 
on building a serious police force or serious police forces, 
because the historic achievement of the Mexican revolution was 
to have taken the army out of politics. I think that--in 
contrast to what was happening elsewhere in the region. I think 
there is a danger that the longer that the army is involved in 
the front line of the crackdown against drug trafficking 
organizations, then the army risks becoming politicized and its 
reputation tarnished. Indeed, we're starting to see signs of 
kind of anomic violence in parts of Mexico that are actually 
reminiscent of the revolution in some ways.
    So I think that the task of strengthening police forces in 
Mexico is absolutely vital and it's going too slowly in my 
view. But that is a task for the Mexican Government, in which 
obviously the United States can help in terms of looking at its 
own drugs and firearms policy, which I know you've held a 
hearing on recently.
    Then just to turn to Senator Rubio's characterization, yes, 
I think that's right, that somebody like Ollante Humala, whom 
you mentioned before, is a man who has antidemocratic 
antecedents, but has arrived in power through a democratic 
process. The Spanish philosopher Ortega y Gasset said: ``I am 
myself and my circumstances.'' I think that the way in which 
Humala governs will depend a lot on his circumstances, and I 
think the United States can contribute to those circumstances 
being those of a strong underlying democracy in Peru by 
engaging with him.
    The only thing I'm troubled slightly by--and this is a long 
discussion, perhaps, to get into at the end of this session. 
But I think there is finally a process of change going on in 
Cuba. I think it's started, because I think that the economic 
changes that the government has announced, modest though they 
are, hemmed in though they are by all kinds of restrictions, I 
think for the first time they involve changes that the regime 
will not be able to control. If indeed one in three Cubans is 
going to be working in self-employment in an incipient private 
sector in a few years time, then the fundamental contract that 
the Castro brothers established with people on the island, that 
they would forego their liberty in return for a series of the 
necessities of daily life being provided for by the state, 
that's gone, and Cuban society will start changing very 
rapidly. I think other countries in Latin America will engage 
with that, and at some time the United States will have to 
think about in what way it could constructively engage with 
that in order to achieve the outcome that I'm sure everybody 
wants of a democratic and capitalist Cuba.
    Dr. Dominguez. Just to comment on your characterization, I 
think it's apt and it can give us clarity on a couple of 
points. It is probably easier and more effective for the U.S. 
Government to work with and support the countries that already 
have constitutional democratic regimes than to deal with those 
that understandably we'll worry about, but their situation is 
harder to address.
    So one connection then could well be to the idea that 
Senator Menendez mentioned a moment ago, namely, his 
longstanding interest in a fund for social and economic 
development. The most successful antipoverty program certainly 
in Latin America, but not just there, has been economic growth. 
To be able to facilitate the kinds of economic growth that will 
bring more people into the work force is an idea on which we 
ought to focus firmly.
    The second observation we've learned, which is why the word 
``social'' is important in the name of Senator Menendez's 
proposal, is that economic growth alone is probably not as 
effective as economic growth with sensible, well-targeted 
social policies. Michael in his opening remarks mentioned 
conditional cash transfers. To give you a different context, 
one of the reasons Humala was elected President of Peru is 
that, for reasons that remain difficult for me to understand, 
neither of the two most recent Presidents in Peru chose to use 
the very impressive economic growth of Peru over the last 
decade to invest in social policies, even when these proposals 
were presented to them by their advisors.
    So understanding the utility of economic growth and smart 
social policies, which other Latin American countries have 
undertaken, and focusing on supporting those who are doing good 
work in these areas--I think that's a good road ahead.
    Mr. Fisk. Senator, I would agree with your typology. I 
would add, though, you've also got to remember that there's 
going to be a government-to-government dynamic and there's 
going to be a civil-society to civil-society dynamic in each of 
the three categories you have of countries.
    What I would encourage this subcommittee to keep in mind is 
we tend at times to focus on the tyrannies and the democratic 
countries at risk. We've got to remember there are still a lot 
of countries that we would characterize or Freedom House, for 
example, would characterize as fully free, but they're still 
struggling. They've got a number of issues on the political 
side, also on the socioeconomic side.
    So it's understandable why we focus on a Cuba, on a 
Venezuela, but we also have to focus on a Guatemala, for 
example. We have to focus on a Paraguay. So those countries, 
you don't want to see them moving into another column. That's 
something to keep in mind.
    Again, I would just put--again, this is from an NGO 
perspective--though the instruments are there to help people 
help themselves, ultimately the peoples of those countries have 
to be the actors and have to make the decisions. But again, the 
United States has a lot we can offer beyond trade agreements, 
beyond rhetoric. There are instruments here. We have to have 
the political will to do it and to deploy those, and that in 
the end becomes the ultimate question.
    Senator Menendez. Well, thank you all very much. We have 
taken a lot of your time. You've been very generous. It's been 
very insightful. I think you will have helped the committee's 
work moving forward. We appreciate your testimony.
    The record will remain open for 3 days for members to ask 
questions. If you receive them, we ask you to respond to them 
as expeditiously as possible. With that, this hearing is 
adjourned.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Deputy Assistant Secretary of State Roberta Jacobson to 
            Questions Submitted by Senator Richard G. Lugar

    Question. In a speech at Johns Hopkins School of Advanced 
International Studies on March 29, 2011, Under Secretary Judith McHale 
discussed how Assistant Secretary Arturo Valenzuela is open to using 
social media to communicate with Latin American citizens. Specifically, 
she stated, ``We are interested in applying social media to promote our 
strategic objectives in the Americas.'' She outlined these objectives 
as the four pillars of our regional partnership: ``protecting citizen 
security; expanding economic opportunity and social inclusion; securing 
our clean energy future; and supporting democratic, transparent, and 
accountable institutions of governance.'' Similarly, in your testimony 
today, you stated, ``We are, in short, a robust partner throughout the 
Americas in support of fundamental building blocks of democracy: 
rights, institutions, security.''

  <bullet> In what ways is social media being used to promote democracy 
        in Latin America? What are the existing programs as of June 
        2011? What plans are being developed to expand social media 
        programming in the region? Please provide examples of how 
        programs are currently deployed, and please give examples of 
        new innovative programs that will be coming on line in the 
        short term.

    Answer. The Department of State uses digital media platforms to 
advance our policy objectives in Latin America: citizen security, 
strong democratic institutions, inclusive prosperity and opportunity, 
and secure and clean energy. Though Internet and mobile penetration 
vary widely across the Americas, the number of citizens accessing these 
technologies is on the rise.
    The technological mediums that we employ vary. WHA uses Embassy Web 
sites, blogs, Facebook pages and local equivalents (e.g., Orkut in 
Brazil), Twitter feeds, video streaming, and interactive Web chats to 
expand our reach and sustain relationships with foreign audiences. WHA 
increasingly uses mobile content developed by other State Department 
bureaus and U.S. Embassies to reach individuals without access to 
broadband Internet.
    Digital platforms amplify policy messages and raise the profile of 
official visits, including of President Obama and Secretary Clinton. In 
their and other visits to the region, social media and Web technology--
across multiple language platforms--attract the largest possible 
audience, thus helping us reach a wider, and often times younger, 
audience.
    For example, when President Obama visited Brazil in March 2011, we 
invited all Brazilians to take part in his visit through a Web site 
where they could provide their views about education, global 
cooperation, the economy, and clean energy. The effort netted over 
32,000 welcome messages for the President, 160,000 visits to 
Obamabr.org, a Web site jointly designed by the Embassy and Office of 
Innovative Engagement (OIE) specifically for the POTUS visit, and a net 
gain of nearly 40,000 new fans and followers on the mission's social 
media platforms.
    Other examples include:
    The use of specialized, targeted programming. U.S. Embassies have 
used a Green Video Contest to engage social media audiences in 
envisioning solutions to clean and sustainable development challenges. 
One post hosted a Women's History Quiz to foster dialogue on women's 
rights; another invited audiences to enter a photography competition in 
honor of the U.N. International Year for People of African Descent.
    The promotion of press and Internet freedom. As part of World Press 
Freedom Day events, the Bureau of International Information Programs 
(IIP) and WHA launched the WHA Enhanced Engagement series of Web chats 
with a Spanish-language program on Violence against Journalists and 
Freedom of Expression, on April 29.
    Engaging with civil society. On February 16, 2011, the Secretary of 
State spoke at the inaugural ``Strategic Dialogue with Civil Society'' 
at the Department of State, the first strategic dialogue with a group 
other than a government. IIP's CO.NX global-cast of the event increased 
direct contact with civil society across the world and linked global 
changemakers to create conversations where none had previously existed.
    Connecting exchange alumni for ongoing dialogue and support. The 
Jovenes en Accion (Youth in Action) exchange program for at-risk 
Mexican youth uses Facebook as an ongoing platform for virtual meetings 
among the participants as they implement the community service projects 
they designed while together. Embassy La Paz uses Facebook to create 
face-to-face connections, using regular content updates and contests. 
The Department of State encourages alumni of U.S. Government exchange 
programs to connect with Americans, embassies, and exchange alumni 
around the world via the Alumni.state.gov Web site.
    Providing information about U.S. foreign policy and programs in the 
region. The Department of State's @USAenEspanol, @USAenFrancais, and 
@USAemPortugues Twitter accounts provide U.S. foreign policy news and 
information in Spanish, French, and Portuguese. The accounts also offer 
Q&A sessions with senior State Department officials. In addition, the 
Bureau of Western Hemisphere Affairs leverages the Department of 
State's official blog, DipNote (blogs.state.gov), to tell its story. To 
date, Western Hemisphere Affairs entries comprise approximately 10 
percent of DipNote's 2011 content.
    Encouraging entrepreneurial growth. On June 28, 2011, IIP also 
launched an Entrepreneurial Facebook page--Iniciativa Emprende--to 
promote entrepreneurship and innovative thinking in Spanish-speaking 
Latin America. Using third-party content to highlight new trends, 
ideas, challenges, and breakthroughs in the world of entrepreneurship, 
the page seeks out young people in the Americas who want to build their 
own businesses. The Web page attracted 5,000 users in its first 4 
weeks. More than 90 percent of current fans are teenagers, evenly 
distributed among Argentina, Mexico, and Venezuela. Link: 
www.facebook.com/iniciativa.emprende.

    Question. Please provide an assessment of the social media 
ecosystem in the region. Accordingly, which countries is the State 
Department targeting with its social media initiatives, and through 
what methods is the State Department using social media in these 
countries? Are any specific programs designed for the ALBA countries? 
Does the State Department focus upon Internet users with broadband 
access, mobile users, or both? Is the State Department partnering with 
any companies like Twitter, Facebook, or Google to achieve its 
strategic objectives in the region?

    Answer. Social media platforms: As part of their public diplomacy 
strategic plans, Embassies select a variety of communication methods to 
engage audiences. To reach new audiences and to assist posts in their 
outreach, the Bureau of International Information Programs offers 
packages of complementary print, audio, video, and social media-ready 
content in various formats, including mobile-friendly formats, 
supplemented by Web chat or digital video conference programs, 
speakers, and PowerPoint materials for presentations.
    U.S. embassies design social media outreach specific to their host 
country environments and U.S. foreign policy objectives. For example, 
the U.S. Embassy in Venezuela uses the Embassy Web site, Facebook 
(7,227 fans), Twitter (12,805 followers), and YouTube to engage a broad 
audience on U.S. policy, democracy, and current events. The Embassy's 
91 YouTube videos attracted 23,910 views in the first 6 months of 2011. 
The Embassy also used its Web site, Facebook page, and the Department's 
DipNote blog to expand the impact of its ``Beisbol y Amistad'' program, 
which connected former Major League Baseball players and coaches with 
underprivileged youth at 10 baseball coaching camps throughout 
Venezuela, with a focus beyond baseball fundamentals to leadership, 
teamwork, and the importance of a healthy lifestyle.
    The Department of State welcomes ideas from U.S. technology 
companies for advancing foreign policy goals. For example, in the 
aftermath of the 2010 Haiti earthquake, a group of engineers from the 
tech community launched a free SMS relief service to help the people of 
Haiti. The text message program allowed people to text their location 
and their needs to a free short-code: ``4636.'' In response to the 
Haitian earthquake, Google worked with the U.S. Department of State to 
create an online People Finder gadget so that people could submit 
information about missing persons and to search the database. This same 
tool was employed for subsequent earthquake responses in Chile, Japan, 
and New Zealand. The Department organized a technology delegation to 
Port-au-Prince for a short training course for Haitians on the use of 
technologies to assist in citizen security. In addition, in Brazil, 
Google launched the ``People Finder'' in partnership with the U.S. 
mission. Google also helped the Embassy to stand up special Orkut (a 
Google-owned social media site extremely popular in Brazil) and YouTube 
pages for the March 2011 Presidential visit (the Mission Brazil Orkut 
community was one of three in existence at the time). Orkut currently 
has 7,476 members in the Embassy community. Link: http://www.orkut.com/
embaixadaeua

    Question. Similarly, what content does the State Department create 
and share via social media, and how does this content relate to its 
democracy promotion goals? How many unique users access and share this 
content with others? On average, how many unique users access State 
Department generated material each month? What are the top three 
countries that access State Department social media content? What 
countries have the least access to State Department social media 
content? Do any trends emerge regarding the user base that most 
frequently accesses and shares State Department content? For example, 
is there a clear geographic distribution of users between rural and 
urban areas?

    Answer. Department of State digital platforms explain U.S. foreign 
policy, society, and values and seek to develop partnerships with 
citizens in achieving shared goals: citizen security, strong democratic 
institutions, inclusive economic prosperity, and clean and secure 
energy. Content may be in the form of U.S. official statements and 
speeches, visual-rich e-journals, videos, or two-way interactive Web 
engagements led by U.S. leaders in government, academia, business, or 
culture.
    Figures on average monthly page views and visitors for the period 
July 2010-July 2011 follow below, along with the countries that most 
access Department social media. The Department of State is working on 
strategies to capture the extent to which users of Department-generated 
material share this content with others. Current data does not tell us 
the distribution of users between urban and rural areas.
WHA Embassy and Consulate Web Sites
Page views--monthly average: 9,190,420
Visitors--monthly average: 1,295,194
International visits: 73.57%
IIP Digital (launched on April 1, 2011)
Page views--monthly average: 130,704
Visitors--monthly average: 71,163
International visits: 69.93%
23 percent of page views related to Democracy Theme
America.gov (Note: America.gov transition to IIP Digital on April 1, 
        2011, and was archived on that date.)
Page views--monthly average: 1,667,684
Visitors--monthly average: 925,288
International visits: 63.52%
6 percent of Page Views related to Democracy Theme
IIP content created on Democracy Theme
English: 2406 documents
Spanish: 357 documents
Top Countries accessing all Department social media
Mexico, Colombia, Argentina, Brazil
WHA countries with the largest Facebook fan bases
Dominican Republic: 58,789
Argentina: 48,470
Bolivia: 39,854
Brazil *: 38,205
Paraguay: 34,891
Mexico: 21,500
Peru: 21,254

* Counting Orkut (popular social media site) fans of the U.S. Embassy 
Brazil, Brazil's total would be 45,679 (37,227 Facebook fans + 7,474 
fans Orkut).

    The country with the least access to Department of State online 
content is Cuba, because of connectivity cost, availability, and 
government censorship of online content.

    Question. Are you aware of any countries in the Western Hemisphere 
that actively censor State Department produced content, and if so, 
which countries censor or block access to this information? What steps, 
if any, have been taken to circumvent this censorship?

    Answer. The Government of Cuba controls media within its borders, 
does not recognize independent journalists, and provides for freedom of 
speech and of the media only insofar as they ``conform to the aims of 
socialist society.'' Cuban law prohibits distribution of printed 
material from foreign sources that are considered 
``counterrevolutionary'' or critical of the government. Foreign 
newspapers and magazines are generally unavailable, and Cuba has the 
lowest Internet penetration rate in the hemisphere. Some hotels 
catering to foreigners offer unfettered Internet access, but its cost 
makes it inaccessible to many Cubans.
    The Department seeks to enhance the free flow of information to, 
from, and within Cuba. In 2010, the U.S. Interest Section (USINT) 
offered 16,347 Internet sessions to the Cuban public, including human 
rights activists and independent journalists, through two Internet 
resource centers. USINT provides daily news and information to Cubans 
in a variety of print and electronic formats. Over 500 independent 
journalists have participated in basic journalism training offered at 
USINT. USINT regularly offers basic computer skills and blogging 
classes, supports over 100 independent libraries in Havana and the 
provinces, and runs weekly onsite English courses.
    At this time there are no other countries in the Western Hemisphere 
that actively censor State Department content.

    Question. What is the State Department's budget for social media 
outreach in Latin America as a whole, and how many specific initiatives 
are included in this budget? What are these specific initiatives, and 
how much funding do they receive? Which countries are allocated the 
most money and for what reason? How does the State Department determine 
how much money a country receives?

    Answer. The Department of State's Bureau of Western Hemisphere 
Affairs (WHA) supports social media primarily through its human 
resources. A recent field survey, conducted by the Office of the Under 
Secretary for Public Diplomacy and Public Affairs, counted 72 Foreign 
Service officers and 114 locally employed staff overseas engaging with 
foreign publics through social media. Their efforts amount to more than 
1,300 hours of work each week or the equivalent of 33 full-time 
positions. There are two Washington-based full-time positions devoted 
to social media in WHA.
    WHA does not allot funds to countries specifically for social media 
outreach. Our embassies and consulates use their program funds to cover 
the costs of telecommunication or multimedia production and editing. 
Occasionally, the Department supports an advertising campaign to raise 
the profile of digital outreach. WHA occasionally pays for added 
bandwidth capacity for streaming video at event venues and for 
simultaneous translations.
    The Bureau of International Information Programs provides technical 
support for digital outreach and Web site hosting, as well as content 
in English, Spanish, Portuguese, and French.

    Question. With regard to technological connectivity, what is the 
State Department's primary focus in Latin America? Is more money 
currently being spent to promote access and provide infrastructure like 
broadband, or is money being allocated to promote an increased user 
base? Of the infrastructural projects for which money is being 
allocated, what are the main priorities (broadband access, cell phone 
towers, etc)? Are infrastructure building projects focused more upon 
rural and under connected areas, or do they focus upon strengthening 
existing infrastructure in urban areas?

    Answer. The Department of State's policy goals are to promote 
policy and regulatory reform for the development of competitive 
communications markets that would allow for the increased deployment 
of, and access to, innovative information and communications 
technologies.
    At this time the Department of State does not allocate money for 
any infrastructure projects. Currently, the only active support to 
build infrastructure is run by USAID in Haiti where a broadband network 
is in place and is being expanded to reach more rural areas.
    USAID is also working on the Global Broadband and Innovations 
Program for improving access and connectivity. This initiative is in 
the beginning stages in Colombia.

    Question. Brazil, Colombia, and Mexico lead Latin America with high 
connectivity, mobile subscriptions, and absolute internet users. Brazil 
has the largest absolute mobile subscriptions in the region, and almost 
90 percent of the country has a mobile phone. With approximately 76 
million Internet users, it also has the highest total number of 
Internet users in the region, and a relatively large percentage of the 
population (approximately 40 percent) uses the Internet. Colombia and 
Mexico share similarly high overall connectivity, yet when one compares 
these statistics to the United States or Europe, one discerns the 
extent to which improvements can be made in these countries. Even 
though these countries are regional leaders with regard to 
connectivity, what steps are being taken to improve their connectivity? 
Additionally, in what ways has the State Department used social media 
to communicate with these countries? How does it measure the success of 
its initiatives, and do you see any immediate areas that can be 
improved?

    Answer. To improve connectivity within and between other countries 
in the region, the Department of State promotes awareness of benefits 
of digital inclusion and shares the best practices for using technology 
to achieve inclusive economic prosperity, citizen security, strong 
democratic institutions, and sustainable growth. For example, our 
embassies engage civil society, educators, journalists, public 
servants, and business contacts in dialogue on how social media have 
improved transparency, efficiency, and performance in U.S. schools, 
business, and government. Social media allows the Department to engage 
with new and expanded audiences, beyond the socioeconomic elite. In the 
social media space, authority is determined not by one's income, 
societal status, or political connections, but rather by the breadth 
and depth of one's networks. Particularly in the case of youth who use 
social media as a way to connect with their peers, the Department is 
able to build and engage individuals through a networked, many-to-many 
model of communication. What previously would have been impossible or 
prohibitively resource-intensive--directly communicating with tens of 
thousands of foreign citizens on an ongoing basis--is now commonplace. 
Social media, as we have seen most recently in the Arab Spring 
revolutions, can help give a voice to the voiceless and provide a forum 
for coordinating collective action for the common good. By engaging in 
these spaces, the Department is able to tap previously unaddressed 
audiences both as targets of communication but also as subjects of 
dynamic, people-powered movements to effect positive change in their 
societies.
    The U.S. Embassy in Bogota uses the Embassy Web site, Facebook 
page, YouTube channel, and Twitter feed to attract and retain social 
media users to encourage understanding and support for U.S. culture, 
government programs, policy, and goals. For example, during Black 
History Month in February 2011, the Embassy ran a comprehensive series 
of content, trivia contests, a Twitter-based video chat with Afro-
Colombian baseball player Edgar Renteria, and promoted various 
activities and events. As a result, the Embassy attracted more than 
1,000 new Twitter followers.
    One measure of Embassy Bogota's online engagement success is its 
steadily expanding online audience. Since January 2011, Embassy 
Bogota's Facebook followers have increased from approximately 4,000 to 
nearly 5,900, and Twitter followers number more than 10,000.
    Embassy Bogota is also working with various agencies to increase 
the use of SMS technology to reach the 94 percent of Colombians who own 
a cell phone. The Public Affairs Section, together with USAID, is 
working with the NGO community and private sector to connect landmine 
victims with community health providers in rural areas via mobile 
phone, as well as to extend judicial services via SMS in at-risk 
neighborhoods. The Embassy is also working with SOUTHCOM to develop an 
SMS messaging system to support counter-recruitment and demobilization 
messaging targeted at rural populations with a large FARC presence.
    The U.S. mission in Brazil has focused on building strong 
partnerships with local social media influencers to grow its robust 
social media communities (now at nearly 38,000 Facebook fans, more than 
7,000 Orkut fans, and nearly 12,000 Twitter followers). The mission 
cooperates with Government of Brazil social media practitioners to 
create joint communication plans for bilateral events and initiatives, 
with Brazilian media figures whose Twitter followings number in the 
millions in support of Cultural Section programming, and with Brazilian 
NGOs in support of social equality.
    The U.S. mission in Mexico uses a variety of electronic tools to 
communicate with Mexican audiences. In addition to the Embassy Web 
site, each of the nine consulates has its own Web site, two ``Virtual 
Presence Post'' Web sites cover southern regions of Mexico, and many 
consulates employ one or more social media tool as well. Embassy Mexico 
City's Web site has received more than 1,200,000 page views since April 
1, 2011, with a monthly average of 330,411 page views. Embassy Mexico 
City also maintains a largely policy-oriented Spanish-language Mission 
Blog, featuring both Embassy-generated content and content from other 
U.S. Government agencies and principals (of which the most recent was 
Under Secretary of State for Democracy and Global Affairs Maria Otero's 
essay on open government).
    Since July 2009, the Embassy has maintained a Twitter account 
(currently with 3,346 followers and growing at a rate of about 10 
followers per day), to draw attention to Embassy news and to circulate 
content from the Web site and blog to other audiences. The U.S. Embassy 
in Mexico's Facebook account currently has 6,410 fans, up from 2,600 in 
November 2010, and recently featured a journalist-created video focused 
on media freedom in the Americas. When Secretary of State Hillary 
Clinton visited Mexico in January 2011, Facebook fans posed questions 
to the Secretary and received online responses from the Secretary, 
covering economic integration and the benefits of free trade, the 
importance of intercultural academic exchange, and the role of women in 
government. The consulates in Ciudad Juarez, Guadalajara, Hermosillo, 
Matamoros, Monterrey, Nogales, and Tijuana each have Facebook accounts, 
as does the Benjamin Franklin Library in Mexico City, for an additional 
15,070 fans, and a grand total nationwide of almost 21,500.
    The Embassy's Public Affairs Section produces original video 
content highlighting, for example, English Access language scholarships 
for underprivileged youth, Embassy-sponsored cultural exchange events, 
and joint U.S.-Mexican scholarships for young Mexican indigenous 
leaders. Links to these videos on the Embassy's YouTube site are 
distributed via the Web site and various social media platforms. The 
most recent video, highlighting the Access program in the state of 
Puebla, received 1,700 views in just 2 weeks. An Embassy-produced 
YouTube video explaining changes to the visa application procedure has 
been viewed 78,880 times in 6 months. The Embassy's new Flickr page is 
nearly ready for launch, and will feature photos of all types of 
Embassy events.
    The State Department worked in collaboration with Alliance of Youth 
Movements (AYM) to host a 2-day summit in Mexico City in October 2009. 
AYM Mexico City brought together approximately 100 young digital 
activists from across the globe to connect with U.S.-based 
technologists and share their work to engage citizens in their own 
countries through technology. AYM Mexico City allowed participants to 
share best practices on digital engagement and political activism, 
including: a Facebook effort by a young Indian boy to remember the 
victims of the Mumbai terrorist attacks; a Twitter-based effort to give 
Moldovan citizens a voice against their former government; and 
innovative mobile and online engagement efforts to provide a voice for 
Mexican citizens against narcoviolence. State continues to work with 
AYM (now known as Movements.org) personnel to identify and connect with 
activists in particular regions. We have also sent out Movements.org 
personnel to various countries through our speakers program.
    In 2010, WHA partnered with the Secretary's Senior Advisor for 
Innovation to lead a delegation of technology experts to Mexico to 
identify innovative methods to address violence in the border region. A 
key deliverable of the delegation was the creation of an anonymous 
crime reporting service in Ciudad Juarez. Working with the Government 
of Mexico, telecommunications companies, and civil society 
organizations, a State Department team developed a technical solution 
for a ``tipline'' compatible with Mexican telecommunications 
infrastructure to permit citizens to make anonymous phone calls to the 
police from any telephone. The technology offers safety and confidence 
to a local community accustomed to witnessing cartel infiltration in 
the local police force. It permits a reformed law enforcement system to 
gain access to valuable information while rebuilding the trust between 
the police and the citizenry. The technical system has been installed 
and is currently in a testing phase. It will be implemented by Mexican 
law enforcement this year alongside a concerted effort at public 
education and community engagement. The Juarez implementation is a 
pilot project, and the Government of Mexico plans to scale up a 
successful model to other cities.

    Question. While information and communications technology data is 
more limited for developing countries, Nicaragua, Cuba, and Haiti stand 
out as three of the least connected countries in the region in terms of 
Internet users, mobile phone subscriptions, secure Internet servers, 
and broadband access. Nicaragua lags in both mobile subscriptions and 
Internet users as it has the lowest percentage of Internet users in the 
region. Cuba has the lowest broadband access, and the lowest percentage 
of mobile phone subscriptions. Similarly, no broadband data is 
available for Haiti, and Haiti has a low percentage of Internet users 
and mobile phone subscriptions. How does the State Department reach out 
to countries with low connectivity? Is social media programming an 
option with these critical nations, or are State Department initiatives 
more focused on providing technological infrastructure? If the latter, 
in what areas is the State Department focusing funding with regard to 
building infrastructure? Have these endeavors been successful thus far?

    Answer. Although Haiti has low Internet penetration, the Red Cross 
estimates that more than 85 percent of Haitians use mobile phones. 
Partnering with local cell phone providers as well as the Bill and 
Melinda Gates Foundation, the Department of State and USAID maximized 
the widespread use of mobile phones and SMS texting to connect voters 
in the most recent elections, as well as to assist Haitians with mobile 
banking. As reconstruction efforts continue, access to Internet cafes 
or home-based Internet service will slowly increase. Private sector 
businesses are already working to increase Internet connectivity.
    In Nicaragua, despite increases in private and public investment in 
the last decade, Internet access remains among the lowest in Latin 
America and the Caribbean. According to the International 
Telecommunication Union (ITU), Nicaragua has 3.5 Internet users per 100 
inhabitants, or approximately 210,000 users. A 2003-07 World Bank 
telecommunications project contributed to expand Internet access to 104 
of Nicaragua's most remote communities by bringing Internet connection 
to small entrepreneurs and local government offices and by establishing 
one public Internet access center in each of these communities.
    State programming has focused on social media training for 
journalists through ECA speaker programs. State is also supporting 
technological infrastructure improvements and training, including the 
use of social media, to independent Nicaraguan radio stations through 
DRL funding channeled through IRI. USAID promotes Internet access 
through small infrastructure upgrades and the provision of equipment to 
key NGOs and in municipal public information offices, including health 
programs. USAID also has trained civil society groups in the use of 
social media and promotes its use as a vehicle for development 
messages.
    In Cuba, the U.S. Interest Section (USINT) offers free Internet 
access to Cubans. Social media are among the platforms USINT employs to 
connect with the Cuban people and to promote the free flow of 
information to, from, and within Cuba. The Department of State has 
actively supported the administration's goal of increasing 
telecommunications connections to Cuba so that individual Cuban 
citizens may have greater access to information. Numerous U.S.-based 
communications companies have consulted with the Treasury Department's 
Office of Foreign Assets Control and the Department of Commerce's 
Bureau of Industry and Security to use the expanded general licenses 
for providing satellite and undersea cable connections to Cuba.

    Question. Many opportunities for democracy promotion exist in Latin 
America in countries like Venezuela and Cuba. However, when using 
social media, different approaches must be used for each country to 
reflect its connectivity and user base. Venezuela, for example, 
represents a key target for social media initiatives because of its 
high percentage of Internet users, mobile phone subscriptions, and 
Twitter users. Cuba, on the other hand, lags behind with regard to 
connectivity indicators. What efforts are you undertaking, if any, to 
promote democracy in Cuba through social media? Are you unable to do so 
because of the lack of infrastructure there?

    Answer. The Government of Cuba controls media within its borders, 
does not recognize independent journalists, and provides for freedom of 
speech and of the media only insofar as they ``conform to the aims of 
socialist society.'' Cuban law prohibits distribution of printed 
material from foreign sources that are considered 
``counterrevolutionary'' or critical of the government. Foreign 
newspapers and magazines are generally unavailable and Cuba has the 
lowest Internet penetration rate in the hemisphere. Some hotels 
catering to foreigners offer unfettered Internet access, but its cost 
makes it inaccessible to many Cubans.
    The Department seeks to enhance the free flow of information to, 
from, and within Cuba to support the Cuban people's desire to freely 
determine their future and reduce their dependence on the Cuban state 
by exposing Cubans to American life and American democratic values. In 
2010, the U.S. Interest Section (USINT) offered 16,347 Internet 
sessions to the Cuban public, including human rights activists and 
independent journalists, through two Internet resource centers. USINT 
provides daily news and information to Cubans in a variety of print and 
electronic formats. Over 500 independent journalists have participated 
in basic journalism training offered at USINT. USINT regularly offers 
basic computer skills and blogging classes, supports over 100 
independent libraries in Havana and the provinces, and runs weekly 
onsite English courses.

    Question. In November 2010, the State Department held its first 
TechCamp in Santiago, Chile, to allow technology experts to discuss 
with community groups and NGOs ways to empower grassroots movements 
through technology. Are any similar programs being planned for the 
future? If so, where would these seminars take place, and what goals 
would they seek to accomplish?

    Answer. TechCamps are a part of Secretary Clinton's Civil Society 
2.0 initiative to build capacity by providing training on tech-based 
tools. TechCamps are 2-day events in which Department of State 
personnel convene civil society organizations, technology experts, and 
representatives from the private sector to provide case studies of 
successful technology tool applications and training to NGOs to to 
increase their impact.
    The Department is actively exploring a TechCamp in conjunction with 
a Digital Inclusion conference that the Uruguayan Government may host 
in the fall. The Digital Inclusion conference aims to promote more 
effective access to and usage of information and communication 
technologies to expand educational opportunities under the Pathways to 
Prosperity initiative in this Hemisphere.

    Question. What new initiatives, if any, are you undertaking in the 
region to promote democracy through the use of social media? What 
countries is the State Department targeting specifically with these 
efforts? What forms of social media are prioritized?

    Answer. Through social media, the Department of State promotes 
democracy by stimulating conversations with foreign publics on formal 
democratic institutions and the linked issues that reinforce them. 
Modern connection technologies provide U.S. Government officials with 
opportunities to engage with foreign publics to discuss the shared 
interests that are at the heart of U.S. foreign policy objectives in 
the region. The Department also provides training and support to enable 
citizens of countries in the Western Hemisphere to use new technologies 
as a means to express their aspirations for constructive change to 
government officials and fellow citizens in their countries.
    These dialogues amplify the Bureau of Western Hemisphere Affairs 
(WHA) strategic goals of expanded economic opportunity for all, the 
safety of the hemisphere's citizens, social equity among all peoples of 
the Americas, and clean and secure energy.
    On June 4, 2011, Acting Assistant Secretary of State for Public 
Affairs, Michael Hammer, responded to questions in Spanish on the 
@USAenEspanol Twitter account. Recently, the Department disseminated 
subtitled versions of Secretary Clinton's ``It Gets Better'' video on 
YouTube, calling attention to the need to stop bullying and offer 
support to sexual and gender minorities.
    During his July 14 ``Conversations with America'' Web chat hosted 
on the Department's DipNote blog, former Assistant Secretary of State 
for Western Hemisphere Affairs, Arturo Valenzuela, discussed the 
process of building and strengthening democratic institutions. He 
tweeted excerpts from then-Principal Deputy Assistant Secretary Roberta 
Jacobson's June 30 testimony before the Senate Foreign Relations 
Committee on ``Democracy in the Americas.''
    On the WHA Facebook page and other social media platforms, the 
Department promoted the Open Government Partnership, spreading 
awareness of an opportunity for countries to act in a multilateral 
setting with civil society partners to create more open and accountable 
governments.
    To address foreign publics on racial and social inclusion, the 
Department's DipNote blog has featured a series of posts to promote 
discussion and offer resources for the U.N. International Year for 
People of African Descent, including one entry on a Racial Ethnicity 
and Social Inclusion program. The program's Web chat attracted 
participants from around the world, creating a space to discuss 
educational, political, and communal opportunities to include people of 
African descent in democratic processes.
    Citizen security remains a salient concern. When citizens do not 
feel safe to vote, conduct business, or even travel in their countries, 
democracy cannot function. Working with the U.S. Embassy in Mexico, 
Mexican mobile providers, and the Mexican Government, the Office of the 
Secretary's Senior Advisor for Innovation is developing a secure 
tipline available to residents in Juarez, Mexico, to help overcome the 
challenge of personal security. WHA Deputy Assistant Secretary Julissa 
Reynoso addressed security issues important to Central American 
countries in her July 15 ``State Department Live'' Web chat with 
journalists. Deputy Assistant Secretary Fabiola Rodriguez-Ciampoli 
moderated a Web chat on freedom of the press and violence against 
journalists in which the panelists answered questions from journalism 
students from several countries in the region, including El Salvador 
and Guatemala.
    Finally, the Bureau of Democracy, Human Rights, and Labor has 
programs that support media training in Bolivia, Nicaragua, Venezuela, 
and Ecuador; these programs address the use and impact of social media, 
along with traditional topics such as independent journalism, 
investigative reporting, and overcoming self-censorship.

    Question. As you continue to move forward with these initiatives, 
where do you see areas for improvement? How can you work with Congress 
to achieve your goals in the region, and ideally, what form of 
assistance would prove most helpful? In the future, would more 
congressional funding be needed, and if so, how much? What role, if 
any, would public-private partnerships play?

    Answer. In accordance with the Department's Strategic Framework for 
Public Diplomacy, the Bureau of International Information Programs 
(IIP) has created and is staffing an audience research unit to 
integrate in-depth market research within the Department of State's 
public diplomacy apparatus to target content more precisely--especially 
social media content--to national and subnational audiences overseas. 
IIP is preparing to launch a 6-month pilot program to create a proof of 
concept for the use of powerful social media analytical and management 
tools to identify trends emerging from social media chatter and 
influential members of social media networks, among other market 
intelligence innovations.
    Through the Secretary's Quadrennial Diplomacy and Development 
Review (QDDR) process, we are investigating the possibility of 
recruiting industry experts in the application of connection 
technologies both to engage foreign audiences and to generate 
innovative tech-driven solutions to foreign policy problems. These 
experts would have regionally focused portfolios and work across the 
Department and with USAID to coordinate the development of strategies 
for the successful deployment of connection technologies as tools of 
public diplomacy, economic development, and the promotion of civil 
society.

                                  <all>

</pre></body></html>
